<html>
<title> - [H.A.S.C. No. 111-178]A QUESTION OF QUALITY AND VALUE: DEPARTMENT OF DEFENSE OVERSIGHT OF TUITION ASSISTANCE USED FOR DISTANCE LEARNING AND FOR-PROFIT COLLEGES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



                                     

                         [H.A.S.C. No. 111-178]

 
  A QUESTION OF QUALITY AND VALUE: DEPARTMENT OF DEFENSE OVERSIGHT OF 
 TUITION ASSISTANCE USED FOR DISTANCE LEARNING AND FOR-PROFIT COLLEGES

                               __________

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                           SEPTEMBER 22, 2010

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

                  U.S. GOVERNMENT PRINTING OFFICE
62-592                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="791e0916391a0c0a0d111c1509571a161457">[email&#160;protected]</a>  
  


              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                     VIC SNYDER, Arkansas, Chairman
JOHN SPRATT, South Carolina          ROB WITTMAN, Virginia
SUSAN A. DAVIS, California           WALTER B. JONES, North Carolina
JIM COOPER, Tennessee                MIKE ROGERS, Alabama
JOE SESTAK, Pennsylvania             TRENT FRANKS, Arizona
GLENN NYE, Virginia                  CATHY McMORRIS RODGERS, Washington
CHELLIE PINGREE, Maine               DOUG LAMBORN, Colorado
NIKI TSONGAS, Massachusetts          TODD RUSSELL PLATTS, Pennsylvania
               John Oppenheim, Professional Staff Member
                Thomas Hawley, Professional Staff Member
                      Famid Sinha, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Wednesday, September 22, 2010, A Question of Quality and Value: 
  Department of Defense Oversight of Tuition Assistance Used for 
  Distance Learning and For-Profit Colleges......................     1

Appendix:

Wednesday, September 22, 2010....................................    29
                              ----------                              

                     WEDNESDAY, SEPTEMBER 22, 2010
  A QUESTION OF QUALITY AND VALUE: DEPARTMENT OF DEFENSE OVERSIGHT OF 
 TUITION ASSISTANCE USED FOR DISTANCE LEARNING AND FOR-PROFIT COLLEGES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Snyder, Hon. Vic, a Representative from Arkansas, Chairman, 
  Subcommittee on Oversight and Investigations...................     1

                               WITNESSES

Gordon, Robert L., III, Deputy Under Secretary of Defense for 
  Military Community and Family Policy, Office of the Under 
  Secretary of Defense (Personnel and Readiness).................     3
Larsen, Timothy R., Director, Personal and Family Readiness 
  Division, Manpower and Reserve Affairs Department, U.S. Marine 
  Corps..........................................................     9
Lutterloh, Scott, Director, Total Force Training and Education 
  Division, U.S. Navy............................................     5
Sitterly, Daniel R., Director of Force Development, Deputy Chief 
  of Staff, Manpower and Personnel, U.S. Air Force...............     7
Stamilio, Anthony J., Deputy Assistant Secretary for Civilian 
  Personnel and Quality of Life, U.S. Army.......................     4

                                APPENDIX

Prepared Statements:

    Gordon, Robert L., III.......................................    33
    Larsen, Timothy R............................................    66
    Lutterloh, Scott.............................................    52
    Sitterly, Daniel R...........................................    57
    Stamilio, Anthony J..........................................    42

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Jones....................................................    79

Questions Submitted by Members Post Hearing:

    Dr. Snyder...................................................    83


  A QUESTION OF QUALITY AND VALUE: DEPARTMENT OF DEFENSE OVERSIGHT OF 
 TUITION ASSISTANCE USED FOR DISTANCE LEARNING AND FOR-PROFIT COLLEGES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Oversight and Investigations,
                     Washington, DC, Wednesday, September 22, 2010.
    The subcommittee met, pursuant to call, at 8:04 a.m., in 
room 2212, Rayburn House Office Building, Hon. Vic Snyder 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. VIC SNYDER, A REPRESENTATIVE FROM 
       ARKANSAS, CHAIRMAN, SUBCOMMITTEE ON OVERSIGHT AND 
                         INVESTIGATIONS

    Dr. Snyder. Good morning, and welcome to the Subcommittee 
on Oversight and Investigations hearing on the Defense 
Department's oversight of the quality of college education 
programs available to active duty servicemembers.
    I understand there are many representatives in attendance 
here today from the National Association of Institutions for 
Military Education Services and others interested in college 
education for military members.
    Since World War II, the Department of Defense has offered 
servicemembers opportunities to pursue a college education 
during off-duty time. Education is important to servicemembers 
and is often identified as a key factor in recruiting and 
retention. Also, in today's complex national security 
environment, a more highly educated force is important for the 
military and its ability to carry out missions. Congress is 
supportive of these kinds of programs.
    Traditionally, the Defense Department has provided 
opportunities by, one, allowing qualified colleges and 
universities to establish programs on military installations 
and, two, providing tuition assistance funding to help members 
afford the cost. Participation in the program has remained high 
for many years. In fiscal year 2010, the Services programmed 
about $580 million for tuition assistance, and even with high 
operations tempo and deployments, more than 380,000 
servicemembers will use tuition assistance.
    Over the past decade, however, there has been a dramatic 
shift in the way in which college programs are provided to 
military personnel. Colleges are still an important presence on 
military installations, but distance learning has recently 
become the predominant method of taking courses. Approximately 
70 percent of tuition assistance goes to distance learning. 
Distance learning provides military personnel flexibility and 
portability. With a laptop and access to the Internet, courses 
can be taken virtually anywhere and anytime.
    There has also been a proliferation of for-profit colleges 
which cater to military students. DOD estimates that more than 
40 percent of its tuition assistance now goes to these for-
profit schools. While most for-profit colleges adhere to the 
same standards as non-profit and public schools, a variety of 
government and public interest organizations have raised 
concerns that some provide a lower quality of education, use 
overly aggressive marketing and recruiting practices, and have 
poor student outcomes.
    DOD and the Services have had policies and processes in 
place to manage and oversee voluntary education programs for 
many years. However, the structure that exists is largely 
oriented towards college programs located on military 
installations. Since 2005, DOD and the Services have recognized 
the need to adapt their management and oversight structure to 
include distance learning programs, but progress has been slow.
    The purpose of this hearing is to examine how the 
military's voluntary college education programs have evolved 
over time and learn what steps DOD and the Services are 
planning to oversee the emergence of distance learning and for-
profit schools, and when. Ultimately, the subcommittee wants to 
ensure that military servicemembers are receiving a quality 
education for the resources invested in these programs and to 
determine if Congress can help.
    Mr. Wittman commutes in from Virginia, and we understand he 
has hit some traffic this morning and will be delayed.
    Mr. Jones, I will be glad to recognize you for any opening 
comments you may want to make.
    Mr. Jones. Mr. Chairman, I will be very brief. I want to 
hear from each of the witnesses.
    I want to thank you. I have three bases in my district. 
This is becoming an issue and I want to thank you and the 
staff. We need to look seriously at the quality of education 
for our men and women in uniform, and that is why I am here. 
And I look forward to hearing our witnesses, and I will have 
questions.
    Mr. Chairman, since Mr. Wittman cannot be here, I ask 
unanimous consent that his statement be put in the record.
    Dr. Snyder. Yes, without objection.
    We will also give him an opportunity to make a statement 
when he arrives.
    Our witnesses today are Mr. Robert L. Gordon, III, Deputy 
Under Secretary of Defense for Military Community and Family 
Policy; Mr. Anthony Stamilio--is that the correct 
pronunciation, ``Stamilio''?
    Secretary Stamilio. ``Stamilio.''
    Dr. Snyder [continuing]. Deputy Assistant Secretary of the 
Army for Civilian Personnel and Quality of Life; Mr. Scott 
Lutterloh, Director, Total Force Training and Education 
Division, U.S. Navy; Mr. Dan Sitterly, Director of Force 
Development, Deputy Chief of Staff for Manpower and Personnel, 
U.S. Air Force; and Mr. Timothy Larsen, Director, Personal and 
Family Readiness Division, U.S. Marine Corps.
    We appreciate you all being here. Your written statements 
will be made part of the record.
    Since we don't have votes until six o'clock tonight, we are 
not anticipating any interruptions. But we will turn the clock 
on, and so the light will go on at the end of five minutes. 
Don't feel like it is a hard stop if you have other things you 
need to tell us, but just to give you an idea where you are at.
    So we will begin with Mr. Gordon and go right down the 
line.

 STATEMENT OF ROBERT L. GORDON III, DEPUTY UNDER SECRETARY OF 
DEFENSE FOR MILITARY COMMUNITY AND FAMILY POLICY, OFFICE OF THE 
      UNDER SECRETARY OF DEFENSE (PERSONNEL AND READINESS)

    Secretary Gordon. Thanks very much, Mr. Chairman.
    Chairman Snyder, Representative Jones, distinguished 
members of the subcommittee, the Secretary of Defense and the 
men and women of the Armed Forces, as well as their families 
and I thank you for your support. My role today is to focus on 
what the Department is doing to provide lifelong learning 
opportunities through our off-duty volunteer education 
programs.
    I am humbled to know that we are continuing the vision of 
our first President, George Washington, who began the first 
voluntary education program in 1778 when he directed his 
chaplain to provide reading, writing, and arithmetic 
instruction to his soldiers while encamped at Valley Forge. He 
recognized the importance of literacy and instilling the quest 
of lifelong learning in our nation's citizens, which is as 
important today as it was over two hundred years ago.
    Each year, a third of our servicemembers enroll in post-
secondary education courses, leading to associate's, 
bachelor's, and advanced degrees. This past year alone, there 
were more than 834,000 course enrollments, and over 46,000 
servicemembers earned degrees and certifications. For the past 
two years, we have held graduation ceremonies in Iraq and 
Afghanistan for 432 servicemembers.
    Servicemembers enrolled in voluntary education programs are 
non-traditional students, as we know. They attend school during 
off-duty and part-time, taking one or two classes per term. 
When the military mission, deployments, transfers, or family 
obligations impinge upon the continuation of education, this 
can result in an interruption of studies and breaks of months 
or even years between taking courses and completing degrees.
    The military is keeping pace with the civilian Millennial 
Generation's expectations to access information through 
technology. To facilitate education in today's high-operations-
tempo environment, colleges and universities deliver classroom 
instruction via the Internet and on military installations 
around the world. There are no geographical confines. Courses 
are offered aboard ships, submarines, and at deployed 
locations.
    All for-profit, non-profit, and public post-secondary 
institutions participating in military tuition assistance 
programs must be accredited by an accrediting body recognized 
by the U.S. Department of Education. Also, colleges and 
universities on our installations adhere to additional criteria 
set by commanders.
    To support these efforts, the Department contracted with 
the American Council on Education to develop a process called 
the Military Installation Voluntary Education Review, or MIVER, 
which provides a third-party, independent review of our on-
installation programs.
    DOD is proactively striving to ensure quality of our 
education programs by implementing a new policy currently on 
the Federal Register for public review. The policy states that 
every institution participating in the tuition assistance 
program will have a memorandum of understanding with the 
Department, which includes an agreement to participate in the 
MIVER process.
    The Department provides incentives for recruitment, 
readiness, and retention of the total force. One of the reasons 
recruits join the military, as we know, is because of 
educational opportunities, and they remain because of them.
    For example, retired Air Force Senior Master Sergeant Eric 
Combs entered the military with a GED, earned his Community 
College of the Air Force associate's degree and his bachelor's 
degree with tuition assistance, then went on to participate in 
the Troops to Teachers Program. In 2005, he was selected as the 
Ohio teacher of the year and is now a principal in the public 
school system. The skills he earned while serving in the Air 
Force had no boundaries. Our nation benefited in the long run 
and continues to benefit.
    Thank you again for your support of military families and 
our military servicemembers. None of this could have been 
possible without congressional support and funding designated 
for off-duty and voluntary education.
    I will be happy to respond to any questions. Thank you.
    [The prepared statement of Secretary Gordon can be found in 
the Appendix on page 33.]
    Dr. Snyder. Thank you.
    Mr. Stamilio.

 STATEMENT OF ANTHONY J. STAMILIO, DEPUTY ASSISTANT SECRETARY 
     FOR CIVILIAN PERSONNEL AND QUALITY OF LIFE, U.S. ARMY

    Secretary Stamilio. Thank you.
    Mr. Chairman, Mr. Jones, thank you for the opportunity to 
appear today to discuss the Army's voluntary education programs 
and Services which afford lifelong learning opportunities for 
soldiers and their families. The knowledge, skills, and 
abilities acquired from such opportunities help to sustain the 
all-volunteer force and assist the Army in retaining its 
position as the world's premier land force. As a result of 
their educational experiences, soldiers become better critical 
thinkers and decisionmakers, which is absolutely vital to 
success in the world today, both on and off the battlefield.
    Army VOLED [voluntary education] programs cover the 
education spectrum, beginning with basic skills, professional 
certificates, associate's, bachelor's, and master's degrees, 
meeting soldiers where they are, allowing soldiers to learn as 
they choose, thereby educating them for the Army's present and 
future needs. The Army has consistently maintained voluntary 
education as a priority by fully funding the tuition assistance 
program and executing the program in accordance with the 
Department's uniform tuition assistance policy.
    The Army commitment to voluntary education extends to the 
theater of operation. We have education centers, counseling 
staff, and classroom instruction that is ongoing in Afghanistan 
and Iraq.
    Despite the high operational tempo of the past nine years, 
soldier participation in education programs, especially college 
programs, continues to grow. During the past two years alone, 
Army college course enrollments have increased nine percent. To 
date this fiscal year, nearly 250,000 Army active, reserve, and 
National Guard soldiers have enrolled in over 500,000 courses 
at 2,500 institutions across the nation.
    Even more telling is the growth in soldier participation in 
distance learning and online courses. In fiscal year 2005, our 
enrollments were about evenly split between the traditional 
classroom and online courses. This year to date, more than 76 
percent of all of our enrollments have been in online courses.
    Clearly, access to quality courses online enables our 
warfighters to continue their progress toward degree 
completion, regardless of deployment, duty location, work 
schedule, or other commitments. In fiscal year 2009, over 4,000 
soldiers received post-secondary education degrees. That number 
has climbed to 4,500 so far this year in 2010.
    We have in place a robust oversight program, beginning with 
the over 200 members of our education center staffs, that are 
required to provide information and counseling to soldiers even 
before they apply for tuition assistance.
    The GoArmyEd Portal is the Army's virtual gateway for 
soldiers to request educational services and obtain tuition 
assistance anytime or anywhere. Our education counselors use 
the portal to track soldier progress and institution 
performance, respond to issues and complaints, and provide 
virtual educational counseling 24/7 around the globe.
    Additionally, our partnership with Servicemembers 
Opportunity Colleges, SOC, is critical to monitor the 
performance of our academic partner institutions, including 
for-profit schools, to ensure they comply with established SOC 
guidelines and principles.
    In conclusion, we are confident that our VOLED program 
provides every soldier the opportunity to first identify and 
then meet their professional and personal educational goals. 
The Army provides a balanced approach that enables success on 
the job and in the college arena, helping to ensure soldiers 
are fully prepared to meet the challenges in the global 
environment.
    We thank you for your continued support of Army Continuing 
Education Programs, and I would be happy to respond to your 
questions. Thank you.
    [The prepared statement of Secretary Stamilio can be found 
in the Appendix on page 42.]
    Dr. Snyder. Thank you.
    Mr. Lutterloh.

 STATEMENT OF SCOTT LUTTERLOH, DIRECTOR, TOTAL FORCE TRAINING 
               AND EDUCATION DIVISION, U.S. NAVY

    Mr. Lutterloh. Thank you, Chairman Snyder, Representative 
Jones, and distinguished members of the Oversight and 
Investigations Subcommittee. I am honored to have the 
opportunity to appear before you today to discuss the Navy's 
approach to voluntary education. Our success is only possible 
through your continued support, and we are deeply appreciative.
    We are very proud of the program, which is compromised of 
two key components: tuition assistance and the Navy College 
Program for Afloat College Education, or NCPACE.
    Tuition assistance offers funding to sailors to attend 
courses from accredited institutions, providing up to $250 per 
credit hour. NCPACE is a Navy-specific program providing 
similar opportunities to our sailors at sea. Nearly 60,000 
sailors and 4,000 officers participated in these two programs 
in fiscal year 2009.
    Program benefits are managed consistent with the individual 
sailor's need to balance the pursuit of education with other 
professional development priorities, such as mastery of rating 
skills, obtainment of warfare qualifications, and progressive 
refinement of leadership skills.
    We have very effectively leveraged our investment in VOLED 
through memberships and associations, such as the 
Servicemembers Opportunity Colleges and the American Council on 
Education. Through these programs, sailors are best positioned 
to successfully overcome challenges to degree completion, gain 
complete transferability of college credit, and maximize the 
educational value of their military training and operational 
experience, while doing so within the funding limits of our 
programs.
    Recognizing the advancing technological and communication 
skills of our force and leveraging our solid foundation and 
advancements in distance learning, we established the Navy 
College Program Distance Learning Partners. These partners 
develop rating-relevant associate and bachelor degree programs 
for the 72 ratings and numerous career fields used by our 
enlisted sailors worldwide. Partners agree to keep residency 
requirements at a minimum and transfer credits from other 
regionally accredited institutions, while striving to remain 
within the DOD-established cap of $250 per credit hour.
    In 2007, we established Enlisted Learning and Development 
Career Roadmaps, integrating all learning, whether obtained 
from training, education, or experience, across a career. These 
roadmaps lay the foundation for sailor success in each rating.
    In the case of the Legalman rating, we have advanced the 
integration of training and education to the point where an 
associate degree in paralegal studies from an American Bar 
Association-accredited institution is now granted at completion 
of the accession development process and is part of the job 
requirement. Educational opportunities like this offer 
potential to offset paths traditionally performed by officers.
    We strive to ensure that every sailor who elects to enroll 
in off-duty education courses has a positive learning 
experience and satisfactorily completes those courses, 
regardless of duty assignment. We are proud that we have 
provided sailors a means to complete their degrees, regardless 
of location, and to offer options that maximize their credits 
through training and job experience.
    We are confident that our voluntary education program 
provides every sailor the opportunity to take college courses 
in an environment where success is the norm. We provide a 
balanced approach that ensures success as a professional 
mariner and achievement of all their college goals.
    On behalf of the chief of naval operations, Admiral 
Roughead, and our entire Navy, I thank you for your continuing 
support for the professional development of this fine force.
    [The prepared statement of Mr. Lutterloh can be found in 
the Appendix on page 52.]
    Dr. Snyder. Thank you.
    Mr. Sitterly.

STATEMENT OF DANIEL R. SITTERLY, DIRECTOR OF FORCE DEVELOPMENT, 
 DEPUTY CHIEF OF STAFF, MANPOWER AND PERSONNEL, U.S. AIR FORCE

    Mr. Sitterly. Thank you, Mr. Chairman, Congressman Jones, 
Dr. Fenner, for the opportunity to discuss college education 
opportunities and the quality of education available to airmen.
    We face extraordinary challenges today, from growing our 
economy to transforming our energy supply, improving our 
children's education, safeguarding our nation, and more. We 
pride ourselves in promoting a culture of lifelong learning not 
only as a way to attract and develop diverse top talent but as 
a way to enhance our airmen's military careers. In fact, we can 
map the voluntary education courses our airmen take directly to 
our Air Force institutional competencies. Simply put, voluntary 
education has a direct mission impact. Equally important, we 
return our airmen to society and to the nation better prepared 
to face the extraordinary challenges I mentioned.
    Every Air Force base has an education and training office 
where airmen are counseled on military and civilian education. 
Each office also provides a college-level examination program 
that enables airmen to take advantage of lifelong learning and 
possibly shorten degree completion time. In addition, the Air 
Force Voluntary Education Center is an online resource tool.
    Air Force policy regarding military tuition assistance 
receives its authority from Title 10 and policy guidance from 
DOD instructions. In fiscal year 2003, the Air Force 
implemented the DOD military tuition assistance uniform caps 
and ceilings, resulting in a 44 percent increase in 
enrollments. Even with decreased Air Force end-strength and 
increased operations tempo, the number of enrollments has 
remained relatively stable.
    One reason, as Dr. Snyder pointed out, is the high 
participation rate in the ever-growing distance-learning 
delivery methods of education. This allows airmen with 
demanding work schedules and frequent moves and deployments to 
learn and to progress toward degree completion more easily.
    When it comes to quality, the key decision point for 
authorization of tuition assistance is the accreditation of the 
school. If the school is accredited by an accrediting agency 
recognized by the Department of Education, tuition assistance 
can be authorized when other eligibility is met.
    Air Force policy provides specific guidance regarding 
access to Air Force bases by school representatives. 
Specifically, guidelines impacting the voluntary education 
community are in an Air Force instruction on commercial 
solicitation on DOD installations. The Air Force has a policy 
of neutrality regarding schools. We neither endorse nor 
discount any accredited school. The diversity of thought that 
comes from learning across a wide range of schools is valued. 
Ultimately, the airman, with proper counseling and degree 
planning, makes the final decision of the specific school and 
program to pursue.
    The Community College of the Air Force (CCAF), my alma 
mater, is the jewel of the Air Force education opportunities 
for enlisted personnel. It is a regionally accredited school, 
and 75 percent of the degree can be earned through Air Force 
training. Twenty-five percent needs to be earned from an 
accredited civilian college. Each year, more than 1.6 million 
credit-hours are awarded through the Community College of the 
Air Force, and more than 335,000 airmen have graduated from the 
Community College of the Air Force. Many airmen are able to 
transfer CCAF [Community College of the Air Force] credits 
toward civilian college bachelor degrees.
    Quality education is a valued part of our Air Force 
culture. You heard from Mr. Gordon about Sergeant Combs, the 
Ohio teacher of the year. We have hundreds of similar success 
stories. NASA astrophysicist Dr. Richard Barry and Arthur 
Tyler, former president of Sacramento City College and now the 
COO of the Houston, Texas Community College system, are both 
former airmen and CCAF graduates.
    Any small successes I might have enjoyed in my 34 years in 
the Air Force is because of tuition assistance and a very 
motivated, dedicated, and perhaps persistent education services 
officer, Mr. Neil Parasot from Malmstrom Air Force Base in 
Montana. He mentored me through eight colleges and 
universities, some non-profit, some for-profit, some public, 
including the Community College of the Air Force, and 15 hours 
of distance learning on the way to a master's degree in 
education, all using military tuition assistance.
    Looking back, I suppose the quality of the eight schools 
did differ, depending on how one measures quality. But the real 
measure of my learning was probably more closely aligned to my 
effort, my concentration, my focus, my commitment, and the 
goals at the time that I took each of these classes.
    Our airmen are committed to learning. The culture of 
education and the passion for learning comes from the many Neil 
Parasots; Anne Smith, who is here with me today; the Jeff 
Allens ; the Shelly Owczarskis; and our Air Force education 
offices around the world today.
    Airmen do have more education options than ever before. The 
Air Force believes that personal and professional growth 
through collegiate programs is essential and beneficial to the 
Air Force mission and the nation. I have an obligation to 
educate our airmen about all of the options that they can make, 
so that they can make a wise and informed choice of schools and 
degree programs and to assure that every airman receives the 
best education possible for the time, effort, and resources 
that they and our nation invest.
    As the education landscape continues to change, we must 
continue to partner with you, with the Department of Education, 
and with America's educational institutions and others to make 
sure that we have this right.
    Thank you for the opportunity to work together. I look 
forward to your questions.
    [The prepared statement of Mr. Sitterly can be found in the 
Appendix on page 57.]
    Dr. Snyder. Thank you.
    Mr. Larsen.

 STATEMENT OF TIMOTHY R. LARSEN, DIRECTOR, PERSONAL AND FAMILY 
 READINESS DIVISION, MANPOWER AND RESERVE AFFAIRS DEPARTMENT, 
                       U.S. MARINE CORPS

    Mr. Larsen. Thank you, Mr. Chairman.
    Chairman Snyder, Representative Jones, thank you for the 
interest in the military tuition assistance program and the 
quality of education opportunities for marines. It is my 
privilege today to represent the Commandant of the Marine Corps 
to discuss this important issue.
    Education opportunities are extremely valuable in growing 
and maintaining the high quality of the Marine Corps. Tuition 
assistance has a profound impact through the lifecycle of a 
marine: from recruiting, where it is an incentive to assist in 
the enlistment process; through career progression, to things 
like discriminators for promotion of enlisted marines, and to 
the reintegration to civilian life, to assist in preparing 
marines for life beyond the Marine Corps.
    Our goal is for every marine to have a quality education 
experience, and there are three elements to that. The first is 
a partnership between the student and the institution. The 
student must be committed to the pursuit of education. The 
second is relying on the Department of Education to ensure 
institutions meet accreditation standards. And third, the 
Marine Corps is focused on student success, particularly new 
students.
    Before tuition assistance is authorized, a mandatory 
College 101 brief and an initial counseling session with a 
qualified counselor occur. Eligibility for first time tuition 
assistance is based on their general technical skills score. A 
GT [general technical] of 100 or higher authorizes them to use 
the program. Scoring 99 or below, we refer people to an 
academic skills enhancement program to prepare them for 
college-level work. Once they achieve a minimum standard, they 
are allowed to use tuition assistance.
    And the program has been very effective and has achieved 
very positive results for new students. About 82 percent of the 
Marines successfully complete their first course. And a request 
for waivers due to failure or incomplete coursework decreased 
about 40 percent, from about 1,100 in 2005 to about 700 in 
2009.
    Protecting marines from aggressive marketing is important 
to unit commanders. The installation commanders have the 
primary responsibility, and they take that responsibility very 
seriously. Issues that are raised are given a critical review, 
and then, if warranted, a local IG investigation is conducted.
    What is important is the opportunity for marines to opt out 
of the program or unsubscribe when they are no longer 
interested in the program.
    We appreciate the subcommittee's interest in tuition 
assistance and quality education opportunities for marines, and 
we look forward to your questions. Thank you.
    [The prepared statement of Mr. Larsen can be found in the 
Appendix on page 66.]
    Dr. Snyder. Thank you all for your testimony.
    We will put ourselves on the five-minute clock here. And we 
will do several rounds, I think, before the morning is over.
    Who is controlling the clock here, Dr. Fenner? There you 
go.
    Is there more to the fairly rapid increase in online 
learning than just convenience? Are there any factors out there 
that concern you that it may be more than convenience, in terms 
of quality issues of the education?
    Maybe we will start with you, Mr. Larsen, and just go the 
other way this time.
    Mr. Larsen. I would offer that many times for-profit 
institutions would probably market themselves very well. We 
don't discriminate between any of the types of either for-
profit, non-profit, or traditional institutions. As long as 
they are accredited, we support marines participating in those 
programs. But I would offer that, if it is a for-profit 
institution, they are probably very interested in marketing 
themselves.
    Dr. Snyder. No, I wasn't asking about for-profit versus 
not-for-profit. I was asking about online learning----
    Mr. Larsen. Oh, I am sorry.
    Dr. Snyder [continuing]. Because traditional schools do 
offer online distance learning also.
    Mr. Larsen. Right. We actually have about 25 percent of our 
students in traditional schools and the rest of them are in 
distance learning programs.
    So I think just the convenience, as you said before, and 
the flexibility it gives the student to participate in the 
program, particularly when they are deployed, allow them the 
latitude to make the course fit to their schedule or when they 
are available.
    Dr. Snyder. Anybody have anything else to add to that?
    Yes, Mr. Gordon.
    Secretary Gordon. Actually, I do.
    You know, this is the Millennial Generation. I think our 
force is really a reflection of our larger society. And we have 
Millennials who look at this, I think, not only in terms of 
convenience but in terms of comfort. They are very comfortable 
with consuming education in a different sort of environment. I 
taught at the Academy, the Military Academy, for about 11 
years. And I was thinking back, in terms of our 40 courses, 50 
to 55 minutes per class, we had a structure, and that is how we 
teach our cadets. Things have changed in terms of this younger 
generation now, which is much more comfortable in a different 
sort of space.
    I think the other thing is education is becoming student-
centric. You know, our education heretofore has been very 
focused on our curricula and how we then instructed in class. 
And with student-centric education, students can go at 
different speeds.
    So I think it does go beyond convenience because of, first 
of all, the technology, but also the generation is much more 
used to consuming education and other different sorts of 
phenomena on the Internet and online.
    Dr. Snyder. But you don't see any potential downsides?
    Secretary Gordon. Well, one of the keys, I think for our 
business is ensuring that we have got systems in place to both 
monitor and oversee it and ensure a quality education for our 
servicemembers. And I think the first step to that is what we 
have been doing in the past, which is ensuring that any 
institution, whether they be online or brick-and-mortar, be 
accredited by the Department of Education.
    One of the differences today, though, is we used to have 
the MIVER process, which was Military Installation Voluntary 
Education Reviews. And what is up for public comment now is 
MVER, but we took the ``installation'' out. So the key now is a 
review process that will include not only those educational 
institutions on our posts and bases across the world but also 
online institutions and off-base institutions, as well. It is 
key.
    Dr. Snyder. We had a lot of discussion about the size of 
the defense budget, always looking for savings. And we are all 
in agreement with that.
    Where are you at with--well, maybe we will start with you, 
Mr. Gordon--for generally each Service, what is the number of 
your counselors and your funding for education counselors? 
Where has it been over the last several years and where do you 
see it going in the future, in terms of the numbers? Have there 
been reductions?
    Secretary Gordon. Good question. I think we still need our 
counselors on our facilities and our installations across the 
country. But, as some of my colleagues mentioned as well, more 
online counseling is available. The perfect example is our 
Military OneSource system, where our servicemembers can go and 
our family members can go to get some counseling, basically, on 
things such as education.
    But I think it is absolutely essential that we have the 
face-to-face counseling, as well, on our installations. The 
advantage, of course, to face-to-face is also those counselors 
on installations have the records of our servicemembers. So, 
while we can start and we will see, I think, an increase of 
online counseling services available, face-to-face is still 
very important. And I think we need to be consistent with that.
    And I would like my colleagues to comment.
    Secretary Stamilio. Thank you.
    Mr. Chairman, when the Army launched the GoArmyEd Portal, 
it provided an opportunity to free up the education center 
staffs from a bunch of administrative duty. As a result of 
that, the Army took the opportunity to reduce the overall 
education center staffing somewhat. We probably went, perhaps, 
a little far in that regard, because our educational staff--
education center staff is stretched right now. We still have 
coverage.
    But we have come to reaffirm the commitment that face-to-
face counseling is absolutely important. And we are working 
within the Army to figure out how best to restore the right 
balance between automation, efficiency, and face-to-face 
counseling for our servicemembers.
    Mr. Lutterloh. Thank you for the question, Mr. Chairman. 
Actually, both questions, I think, are pretty important.
    I would like to just go back for a second. While I agree 
with my colleagues, I would like to add that what we are 
focused on primarily is sailor success. And that comes to pass 
in several different measures.
    First off, I would like them to successfully complete that 
course. So we insist that they all have a college plan and that 
they all talk to a counselor, whether that be face to face or 
over the phone, before they engage in any educational 
opportunity. We have laid in some requirements for them to have 
completed some of their professional work before they embark on 
an education plan. We want them to successfully complete that 
course.
    Relative to distance learning, the initial indications are 
that the completion rates for traditional learning, traditional 
education in a brick-and-mortar schoolhouse, are a little bit 
higher, about 90 percent, compared to the lower number in 
distance learning, 80 percent. We are still trying to 
understand exactly what that means, but that is one of the 
things that we look at and try and measure to understand the 
effectiveness of those programs.
    Dr. Snyder. Would you repeat that for me again? Ninety----
    Mr. Lutterloh. Roughly 90 percent for our enlisted 
undergraduate degree programs, about 90 percent of our enlisted 
sailors, are completing those courses. It is roughly 80 percent 
for distance learning. So we see a little bit of a difference 
initially in the numbers that we are measuring there. So we are 
keeping a pretty close eye on that to understand how that 
happens.
    Again, regarding success, another measure is 
transferability. We want sailors to be able to get their 
associate degree and go on to a bachelor's degree, transferring 
all of those credits that they have engaged in for their 
associate degree at the bachelor level and beyond that. So 
accredited institutions are important to us.
    Those are a couple of the measures that we have.
    We have carefully reviewed our counseling staff across the 
nation and around the world, keeping in mind that technology 
has advanced over the last decade or so to the point that 
virtual counseling is now well within the realm of possibility. 
We have established just this past year the Navy's first 
virtual education counseling center. Twenty-seven employees, 
split between education technicians, who are there to make sure 
all of the records are kept current, and eight counselors, who 
operate from 6:00 in the morning until 9:00 at night, offering 
counseling services to sailors around the world.
    That workload is picking up. We have about--we average 
about 150 counseling sessions per week. And that is keeping up. 
We have in-sourced our contractor workforce to civilians, so we 
are moving those contractors into the government service at our 
Navy college offices around the world.
    Mr. Sitterly. Thank you, Dr. Snyder. I would also like to 
respond to the distance learning question for just a moment.
    In fact, we in the Air Force have embraced that in our own 
professional military education courses, recognizing that that 
is sort of what the Millennials are looking for. And our 
educational outcomes can be very closely measured to success.
    For instance, at Air University, we now have an online 
master's program that we offer, accredited with the rest of our 
Air University courses. By law, our first-time supervisors for 
civilians are required to do first-time supervisory training. 
That is offered online with a facilitator around the world 
through Air University. We find that that gives us a very 
standardized opportunity versus having different people address 
it differently. We ensure that all of our civilian supervisors 
get that same quality of education.
    That said, I don't know that I would want to go see a 
physician who only has ever done distance-learning schools. So 
I think there are some opportunities to do things the 
traditional way. But most of our students that are enrolled in 
voluntary education are taking business degrees, management 
degrees, computers, and psychology. And I am comfortable that 
the quality of that education through accredited schools is 
very high.
    The counselors--we do have 82 education offices throughout 
the Air Force, and we have two or three counselors at each 
installation, depending upon the size. And we have taken some 
reductions, but we have offset that with our online voluntary 
education office, as well. And then we can synergize with the 
Community College of the Air Force, so if they have specific 
questions, once they get the degree, then they can call into 
the Community College of the Air Force to get direction there, 
as well.
    So I think we are doing fine.
    Dr. Snyder. Any further comments?
    Mr. Larsen.
    Mr. Larsen. Yes, sir. Regarding counselors, you know, they 
are very important to us. We have counselors at every one of 
our installations.
    I would offer that about 60 percent of our participation in 
the program is the junior enlisted marines. And those people, 
many of them are getting out at the end of their initial 
enlistment and not making the Marine Corps a career. So those 
people--it is very important to connect with them, to make sure 
they have a good experience and make sure that they are 
prepared for college-level work.
    They are the preponderance of the work that is done by the 
counselors. And every one of those individuals, when they begin 
the program, have a face-to-face counseling session with a 
counselor that lasts for about an hour. So----
    Dr. Snyder. I apologize for my coughing here.
    It would probably be helpful--let's take it as a question 
for the record--to see the numbers and your evaluation of the 
number of counselors and availability of counseling, online or 
however you do it, over the last several years and as you go 
forward.
    Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you very much.
    And, gentlemen, thank you for your presentation.
    I would like to start my question with a statement and a 
reading from Bloomberg Business Week, ``For-Profit Colleges 
Targeting the Military.'' Let me start here. ``Some Active Duty 
personnel can earn an associate degree, which typically takes 
two years of study, in five weeks.''
    I am just going to throw out two or three points, and I 
would like for you to respond.
    ``Three--American Military University, Phoenix, and closely 
held Grantham--charge $250 a credit, or $750 a course, which 
allowed them to receive the maximum reimbursement by U.S. 
taxpayers without servicemembers having to pay any out-of-
pocket tuition. Publicly funded community colleges offer 
classes on military bases for as little as $50 a credit.''
    As the chairman said, we are in a terrible financial 
situation as a nation. And there are many aspects to 
government. That we all know.
    I have had the opportunity to talk to several people in the 
Third District of North Carolina. And we know that the military 
deserves every opportunity that the taxpayer can give him or 
her, especially in education. But when you see articles like 
the one in Bloomberg--and Wall Street Journal has done a 
couple, I think--it does not help the program, because the 
taxpayer who is picking up the bill is looking at this and 
saying, ``Is the soldier getting equal education?'' If he or 
she can get education at a community college that offers 
courses for $50 versus a for-profit university that is charging 
$250 and $750, then something is not right.
    My question to start is, how do you keep the good and weed 
out the bad? Where is that check and balance that they report 
to you or to DOD, Mr. Gordon? How can the taxpayer be assured 
that the military is getting a quality education and really not 
an education in being taken advantage of?
    Secretary Gordon. Thank you, sir, for allowing me to 
respond to that. It is a very good question.
    I think, first of all, we have to ensure that we adhere to 
the accreditation process, and we do. I did see that article 
and read it. It made me think about, first of all, 
accreditation. And we do; we adhere to the accreditation 
process. So what we do is we ensure, regardless of the type of 
educational institution, that they are accredited by the 
Department of Education.
    The second piece is oversight, I think. And we had the 
MIVER process. We are changing that. That MIVER process was 
focused on the educational institutions on installations, and 
we are expanding that now. And our expectation is, if 
successful, we will be able to use that basically to review and 
monitor and oversee these educational institutions, regardless 
if they are online, off-post, or on-post.
    Now, the MIVER process is a process where--it is run by the 
American Council on Education. They will send four to five, 
basically, members in to take a look at curricula. They will 
take a look at teachers. They will conduct interviews with 
commanders and with students.
    So I think, by expanding that process to all institutions, 
we will assist once again in ensuring a quality education. 
Because it gets down to quality, first of all, but also 
adaptiveness, I think. You know, we have a very mobile 
workforce. That is in society writ large. Multiple deployments, 
of course, occur in the military Services now.
    And I understand what you are saying about the $50 versus 
$250, but at the same time, having the sort of flexibility and 
agility in a system where individuals can have a choice among a 
menu of different types of academic institutions that really do 
suit them and will end up eventually in an education for them, 
where they can complete it, I think that is absolutely key.
    Mr. Jones. Mr. Gordon, that has been one of the problems 
with education, is that--I am talking about not the military--
instead of giving the child the challenge along the way to the 
12th grade, if we have made it easy for him or her, then when 
they get that high school diploma, it doesn't have the quality 
because the person really was not challenged to receive that.
    I appreciate your comment about, you know, more oversight 
and trying to weed out, I guess, the good and the bad, if I 
could phrase it that way. But the American Council on Education 
that will--that does report back, how many universities, online 
or not online, just not-for-profit, have been delisted in the 
last five or six years?
    Secretary Gordon. Good question. I do not know the answer 
to that.
    I don't know if the Services know, delisting at all?
    I don't know. We will have to--I will have to get back to 
you on that.
    Mr. Jones. Well, I wish, Mr. Chairman, we would get that 
for the record because I think that will tell us a whole lot. 
And again, I have great respect for the military. But we need 
to know for the taxpayer and the military that those 
universities that are in it just to make money from the 
taxpayer and not give the quality education, that they don't 
exist any longer, as it relates to the military.
    [The information referred to can be found in the Appendix 
on page 79.]
    Mr. Jones. I will yield back at this time.
    Dr. Snyder. Thank you, Mr. Jones.
    The issue of for-profit schools, this full committee and 
this subcommittee are not trying to solve and will not solve 
this whole issue of for-profit versus not-for-profit schools or 
private colleges. That is not what we are about. We are talking 
here about how you all provide oversight of the substantial 
amount of money that is going to your military personnel and 
making sure they are getting what they want out of it, and your 
help. So that is what angle we are coming from.
    But in terms of looking at quality, following on what Mr. 
Jones talked about, I don't think we have good employability 
numbers, but my guess is you couldn't really tell us, well we 
had a higher officer promotion rate if somebody went to a for-
profit school versus a non-profit or private college, you know, 
down the road, or versus online. I mean, I suspect you don't 
have the ability of throwing out any numbers in terms of 
employability. In the private sector, that can be hard to get 
at, too.
    But in terms of loan default rates, there are some numbers 
there. In 2009, students, within three years after leaving for-
profit schools, that had an associate degree had a default rate 
of about 23 percent, compared to 15 percent at a public or non-
profit school. And when you look at students at for-profit 
schools that offered a bachelor's or higher degree, they had a 
default rate of about 18 percent, compared to 6 percent from 
public or private schools.
    Now, I don't know exactly what all that means, but I think 
it means we ought to be asking some questions. What it says is, 
in the private sector, the non-military world, is that, for 
whatever reasons, the students that are going to for-profit 
schools for an associate degree and the higher degree levels 
are ending up with higher default rates. And one implication 
could be they are not making as much money, that their 
investment was higher than the payoff for it.
    But those are,--in addition to anecdotal stuff, I mean, 
some of the things that concern us as we see this fairly rapid 
increase in the amount of money, federal dollars, that is going 
to for-profit schools.
    Do any of you have any comment about the default rate 
issue? Maybe that is not anything you have thought about.
    Mr. Lutterloh. Thank you, Chairman Snyder. It is an 
interesting question.
    And our Navy college offices, in particular our counselors, 
are there to counsel sailors in the development of an education 
plan that does not depend on loans. So we are counseling them 
and directing them to colleges and universities accredited by 
the Department of Education who are in our consortiums, more 
often than not, and who are offering courses, fully accredited, 
fully transferable, to these sailors within the constraints of 
the tuition assistance limits that we have.
    So, in my view, sailors should not be embarking in loans. 
So I don't have data that would indicate default rates on these 
loans.
    Dr. Snyder. No, I recognize that. But that is not the 
issue. The issue is, why is there a higher default rate in the 
private sector for for-profit schools? Does it imply that there 
is something qualitatively different with the quality of 
product that these mostly young people are ending up with? That 
is the issue.
    And my guess, as I said before, that you can't analyze 
officer promotion rates, for example, and say, oh, we are 
seeing that the for-profit schools are doing better than the 
not-for-profit schools. I think that would be tough for you, 
other than anecdotally. But there is information out there that 
says maybe we ought to be looking at this, maybe the quality 
isn't as good.
    I think I will curtail my time here. I notice we have been 
joined by Mr. Wittman, who survived yet another commute. In 
fairness to Mr. Wittman, there is really not a lot that goes on 
in this town at eight o'clock in the morning, and so he doesn't 
have to get going this early very often. He is one of those few 
blessed Members that gets to live at home.
    Mr. Wittman, if you would like to do your opening 
statement, you are welcome to. We will give you as much time as 
you want right now. Or if you just want to progress to some 
questions, whatever you would like to do.
    Mr. Wittman. Well, folks, thank you so much for joining us 
today. And I am sure you have been quizzed on a number of these 
issues, so I hope that my questions aren't going to be 
repetitive.
    But, you know, in looking at this whole scope of issues 
that our men and women in uniform are dealing with, obviously 
we want them to be pursuing higher levels of education. We also 
want to make sure that it is convenient to their deployment 
schedules.
    So, trying to mix that in with all of the other issues here 
and making sure that what they are paying for is truly the 
value that they are getting and that that value translates 
through their careers, I am just going to ask you in general: 
Do you see the current opportunities in distance learning and 
integrating that in with deployment schedules to make sure that 
our men and women in uniform get those educational 
opportunities?
    Do you think the current system is doing all that it can to 
do two things: to make sure that our men and women have access 
and, secondly, to make sure that they are getting maximum value 
for the opportunities that are out there?
    And, Mr. Lutterloh, I will begin with you.
    Mr. Lutterloh. Thank you, Congressman Wittman.
    I think the distance learning offers tremendous access. 
And, judging by the numbers, the increased utilization of 
distance learning in the force, I would say there is some 
value, from the sailor's perspective. Whether or not that is 
providing maximum value is very difficult for me to tell.
    The value--when I talk to sailors, the value that they get 
out of education is, more often than not, linked to degree 
completion. A degree from an accredited institution is what 
they are looking for, more often than not. It gives them 
greater range of job opportunity if they are to get out of the 
Service. It means more money in their salary, more than likely, 
in the future. All of these things are of value to the sailor.
    So I would say a degree from an accredited university is 
the value that they are looking for. And, judging by the fact 
that all of our courses and institutions are accredited by the 
Department of Education, I would say that there is quite a bit 
of a foundational value to those sailors.
    When we get into the value of the content, the curricula, 
depending on where that sailor is in his or her life, what kind 
of pressures they have on them, how eager to learn they are, 
how much time they are able to put into that, I would say some 
of that impinges on the value, as well.
    But I couldn't comment on the content value other than to 
say they are accredited or not by the Department of Education.
    Mr. Sitterly. Thank you, Congressman.
    And I agree. Access, absolutely, everyone has it, as 
indicated by the number of folks taking distance-learning 
courses, upwards of 70 percent for us now, with military 
tuition assistance, as well.
    Also, in those rare cases where an airman doesn't have 
access perhaps to a laptop to get an online course, we can do 
streaming video. There are other distance-learning 
opportunities, you know, ``box of books'' that Chairman Snyder 
loves so much in our PME [professional military education] 
schools.
    But distance learning comes in many forms. And so, 
absolutely, yes.
    And I think the goal of accreditation, of course, is to 
ensure that the education provided meets a level of acceptance. 
And the Department of Education recognizes certain accrediting 
institutions that have the ability to evaluate those schools. 
And so, I think, to the degree that the rigor and the 
discipline of those agencies is acceptable, then I feel that 
our airmen get a quality and valued education, as well.
    I did want to go back, if I may, sir--and I recognize I am 
on your time--to Congressman Jones's point. And, sir, I 
recognize the cost, and I see your point exactly. But I did 
want to make the point that we do have a cap on the annual 
amount of tuition assistance that a military member can take. 
So, even though the semester hours might be more expensive--and 
they are capped. We have a $4,500-per-year maximum that a 
military person can use.
    So, when I was using my military tuition assistance, I sort 
of shopped around and got a little more aggressive toward 
finishing my degree. So I looked for a cheaper school, so I 
didn't exceed the cap--the caps back then were, obviously, a 
lot less. So there is a little bit of that, as well, sir.
    Mr. Larsen. Yes, sir. The short answer is, in the Marine 
Corps, not all of those that want to participate in the tuition 
assistance program get the opportunity, primarily for 
operational reasons or OPTEMPO [operations tempo] deployments.
    Being a former recruiting station commander, I would tell 
you that, if not the number-one reason, one of the very most 
important reasons why people join the military and join the 
Marine Corps is for off-duty education, the opportunity to 
participate in that. They don't all get that because of the 
deployment schedule right now, but I would offer that there is 
somewhere around 31,000 marines that are participating in 
tuition assistance right now.
    If you look at those that get off active duty, there is 
about 55,000 of them, or about that number, that are 
participating in the Montgomery GI Bill, which tells me that 
there is a lot more that would participate in tuition 
assistance if the opportunity were there.
    Mr. Wittman. Thank you.
    Mr. Gordon.
    Secretary Gordon. Thank you, Congressman Wittman.
    I agree with my colleagues. I think, first of all, when we 
take a look at distance learning, you know, it is the delivery 
of education and training through electronic media, mediated 
instruction. So it is expansive. And I think what we have is 
the architecture, basically, in the military to provide that.
    I agree with Mr. Larsen. The opportunities might not exist 
as much as they could in an environment where we would not have 
as many deployments. But we do; that is a fact of life. And I 
think we do have that access.
    In terms of maximizing effectiveness, though, I think it 
behooves us to continue to be proactive in looking at how we 
can provide the kind of oversight to ensure a quality 
education. We do have the fact that, you know, these programs 
are accredited by the Department of Education, but we are very 
hopeful, with the new MIVER that I have discussed earlier, that 
we will have the kind of oversight we need for all of those 
institutions.
    Mr. Wittman. Mr. Stamilio.
    Secretary Stamilio. Thank you, Congressman Wittman.
    Clearly, the issue of access to distance learning is 
absolutely vital, and 76 percent of Army enrollments are 
through the distance-learning mode. And that is very important 
to an organization as busy and as far-reaching as the United 
States Army. And so we certainly--our soldiers certainly take 
advantage of that.
    In terms of the value, in the context of the overall growth 
of technology, as the Army has launched its integrated portal 
to administer the Tuition Assistance Program, it also provides 
soldiers an opportunity to look at a course catalog, or 
actually multiple course catalogs, from the 2,500 institutions 
that have committed to the Army that they will administer their 
programs in accordance with our needs and consistent with the 
SOC standards. So soldiers have a wide array of opportunities 
that they can pursue and do some cost comparison, as well.
    And so, in terms of value, we had set up the architecture 
in the system so that a soldier can plot out his or her 
collegiate future and then do the appropriate shopping, 
recognizing that the courses that will be taken, if he or she 
is choosing the right ones that are consistent with our overall 
program, that those courses will be transferrable. And so a 
soldier could have the opportunity to take a course from this 
institution or that institution and it would be transferrable, 
and maximize his or her value for the Tuition Assistance 
dollar. And so there are some advantages to all of this.
    The other point that I would mention is, many of our in-
classroom instructions--in fact, much of our in-classroom 
instruction relies on adjunct professors that come from the 
surrounding area. Now, in the case of a military base that has 
universities nearby, those adjunct professors are sometimes 
very easy to come by. In other locations, they rely on other 
adjunct professors. What distance learning provides is an 
opportunity for the institution to go find the best professor, 
the best instructor, and remote that instructor in a distant-
learning environment. And so the potential exists, whether the 
institution takes advantage of it or not, but the potential 
exists to actually get the higher-quality instructor for the 
particular program that is being offered.
    Thank you.
    Dr. Snyder. Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you. I appreciate the 
answers from the panel to each, the chairman as well as the 
ranking member.
    I want to go back and read a couple points, and then I am 
going to make a statement and listen to you, and then I need to 
leave. We are going to have a classified hearing on rules of 
engagement today.
    Mike Shields, a retired Marine Corps colonel and human 
resource director of U.S. field operations for Schindler 
Elevator, the North American arm of the Swiss Schindler Group, 
says he rejects about 50 military candidates each year--50 
military candidates each year--for the company's management 
development program. ``Because their graduate degrees came from 
online for-profits, we don't even consider them.''
    That is a tragedy. I mean, this is a man, like yourselves, 
who has served in the military. I am sure he would rather hire 
a military retiree than not hire one. I don't know that because 
I don't know the man.
    Then another comment, made I guess by a counselor: ``Some 
of these schools prey on marines,'' he says. ``Day and night, 
they call you, they e-mail you. These servicemen get caught up 
in that. Nobody in their family ever went to college. They 
don't know about college.''
    I hope you are asking--I guess, again, for this 
recommendation as to how we move forward--meaning we, the 
American people--it seems like to me that we have had a 
system--and this does not blame anybody sitting at the table--
but we have had a system that really seems like it is not as 
well-controlled as it needs to be. Because I cannot imagine, if 
I was a marine or soldier, sailor, airman, whatever, and I 
decided I wanted to better myself and go get online--and I 
don't know Phoenix University from Duke University; let's say 
that is the type of person, okay? And I don't know a thing 
about Phoenix. I just happen to see their ads all the time. 
That is the only reason I am using them. They might be the best 
in the world.
    But anyway, so I decide that I am going to go--I keep 
getting these calls, I get these e-mails. And, you know, I am 
just going to take one course, that is all, from this for-
profit. And then I find out, if I do complete the course, that 
I don't have an equal opportunity to that person that went 
maybe to a small school. Now, I am not talking about the big 
schools, but a small school.
    And I hope that the Congress of next year, whomever is 
sitting here next year, that we will work with the Department 
of Defense. Because, in my humble opinion--now, I am basing a 
lot of this on conversation back on some of the bases that I 
represent. We have a situation here that the taxpayers' dollar 
is not being well-spent. And even more seriously than that, to 
me, is that person in the military is not getting a quality 
education. And when they get out of the military, they are 
going to find out that what they thought they had that would 
help them open a door will not open a door. That is a tragedy.
    Mr. Chairman, I guess nobody is going to answer. I would 
just----
    Secretary Gordon. I would be happy. Thank you, Congressman 
Jones.
    You know, it is interesting, looking at society writ large 
right now and the emergence of online education. As I said, I 
read that article before----
    Mr. Jones. Right.
    Secretary Gordon [continuing]. And I looked at that 
comment, and I think you are right: We have to ensure a quality 
education for our servicemembers.
    What we don't know right now is the degree to which our 
society, our commercial sector, values an online education. So 
I am not sure if that comment is a result of, ``It was an 
online education; therefore, we don't hire them,'' or, you 
know, ``The quality was not sufficient, and, therefore, we 
don't hire them.'' I think it is a new day, that we are still 
growing in terms of this online education process.
    I do know that what we are better understanding is that we 
all learn differently, even in this room. And whether the 
delivery system is a brick-and-mortar system or an online 
system, I think, for our servicemembers, being able to map out 
a certain sort of educational delivery system that better 
matches how they learn is something we can give them and a 
great opportunity to do.
    But, as you said, the key is ensuring that sort of quality. 
And I think first with accreditation, but with this change in 
MIVER, we can take a look at all those institutions and ensure 
our commanders and our installations also have a part of the 
process, we can ensure that quality education for our 
servicemembers.
    Mr. Jones. Thank you.
    Mr. Larsen. Yes, sir, if I could, Congressman Jones, one of 
the Marine Corps installations that is in your district, we 
have an example of where we have one of the educational 
institutions that was considered not of value by the local 
commander. We have barred them from the base, from conducting 
business on-base.
    So it is very difficult when you put the onus on the 
individual installation, on the individual education services 
officer to make a determination to bar somebody, and then that 
is done at one installation and not done across the board at 
other installations.
    So I think we need not only to put it at the local level, 
but also we need to make sure that those institutions are 
accredited and are of value and make sure that they do provide 
the marine or whatever servicemember the value of education 
that they are looking for.
    But we do have a couple of examples where we have shown 
that it is not of value and we have taken action to prevent 
them from conducting business on installations.
    Mr. Jones. Good.
    I yield back, Mr. Chairman.
    Dr. Snyder. Thank you.
    Aren't there about 7,000 schools that participate somehow 
in the tuition assistance program? I mean, it would be a very 
difficult challenge to expect you all to somehow analyze all 
the coursework. And I am sure the departments vary from within 
the same school. And I think you all are having to grapple with 
a societal issue here on this topic, but you have a special 
niche.
    I want to ask about the 90/10 rule, which I didn't really 
know much about. I thought the 90/10 rule had to do with how 
much a local government had to put up after a tornado to get 
FEMA cleanup moneys, but this is a different 90/10 rule.
    But I think it was while Mr. Jones and I have been in 
Congress, at some point we said that, okay, let's at least say 
that these for-profit schools have to have at least 10 percent 
of their students actually pay their own money. The quality is 
so good there is at least 10 percent of the student body that 
is paying their own money. And so up to 90 percent could be 
title IV Federal dollars.
    But here is where you all come in: military tuition 
assistance doesn't count in the 90 percent. It counts in the 10 
percent. So--I will make this up--theoretically, there could be 
a school out there that has, you know, 89 percent of its 
students getting title IV moneys through Stafford loans or Pell 
Grants and 11 percent tuition assistance, so they would be 100 
percent federally funded, because your students count in the 
private side of things.
    Now, that is concerning. That is concerning because then 
you would have a school that every taxpayer in America is 
paying into, and yet they may not have any or just very, very 
few students that actually have looked at the quality and think 
it is worth me putting up my own money for.
    And I don't know how we grapple with that. I guess--I don't 
know if that is an oversight or what, but it seems like if the 
90/10 rule means anything--and maybe it doesn't; it is kind of 
a roundabout way of getting at quality, I think--but if it 
means anything, then it just doesn't make any sense to me why 
federal military tuition assistance isn't counted as part of 
the 90 percent.
    Do you all have any comments on that? Is that something 
that you all are familiar with?
    It got real quiet here.
    Secretary Gordon. I am not real familiar with it, but it 
needs to be taken a look at, yeah.
    Dr. Snyder. And, frankly, that is not your responsibility. 
I mean, these are issues we are dealing with that are really 
not the job of the Secretary of Defense to sort out or, you 
know, the Chairman of the Joint Chiefs, but they are issues 
that you all are involved in.
    And that may be one of the reasons why you are seeing such 
predatory--some predatory behavior out there or what you 
describe, Mr. Larsen, as very aggressive techniques. It may be 
that, you know, some schools need to keep these numbers up, 
otherwise their balance is thrown off under the 90/10 rule.
    The issue came back, Mr. Larsen, when we were talking about 
loans versus tuition assistance, and we all know--we are 
talking about the tuition assistance program. I remember, this 
was in my olden days, right after I got out of the Marine 
Corps. And I had dropped out of college after two years to join 
the Marine Corps. And while I didn't smoke, somehow I ended up 
with a matchbook with an offering for a heavy-equipment 
operator school. Sadly, I probably got it in a bar. But anyway, 
I ended up with this matchbook, and I called them up. And I 
thought, ``I could drive a Road Bear.''
    And so, this guy calls me back right away. He gets a hold 
of me, and he is going to meet with me. Well, we ended up 
meeting, like, in the parking lot right out of a motel room. I 
think he was from out of town somewhere, and had come down 
there. There was a--it looked like a girlfriend with him. I 
think they thought this was going to be a big killing.
    And you talk about aggressive sales techniques, I mean, he 
was just saying, ``You know, you can always change your mind. 
It is not going to cost you anything.'' He used the phrase 
``Uncle Sugar'' several times. ``Uncle Sugar, no problem''--
well, I didn't sign up for it. But later on I realized that--
and this was the GI Bill--that I only had, I think, at that 
time, like, two opportunities to change my program. Well, if I 
had signed up for that and dropped out, that would have been 
one. So if I had decided to change my mind and not be a medical 
student--I mean, it was taking away an option, and yet it was 
like it was a free ride.
    But I would have had no skin in the game. That is the 
difference--that is one of the differences here. I could have 
signed up for anything. Your tuition assistance to students, 
you know, whether it is $250 or $50, they have no skin in the 
game. And I don't think they should. But that does put more 
responsibility on you all to monitor the quality. I mean, 
nobody is--I suspect you don't get many complaints of people 
coming back and saying, ``I was really hoping I would study 
more,'' you know, ``I was really hoping I would have to stay up 
later at night and do my homework because of the rigor of the 
tests that were coming up.''
    Secretary Gordon. Uh-huh.
    Dr. Snyder. I suspect most people don't come to you and 
say, ``We were lacking rigor.''
    Secretary Gordon. Well, Mr. Chairman, they actually do have 
skin in the game. We provide them the money for tuition, but 
they must provide all the support in terms of computers, books. 
So they do get skin in the game through the fact that we do 
have a tuition piece but they have to provide the other support 
system, basically, to take the course.
    Dr. Snyder. Well----
    Secretary Stamilio. Mr. Chairman, if I may, I would like to 
offer a comment with regard to that.
    The Army has a program that focuses on credentialing and 
licensing, a program much like what you discussed off the 
matchbook cover. And the focus on this is for the soldier who 
is probably not going to pursue a bachelor's or a master's 
degree but needs a professional certification, perhaps as a 
heavy-equipment operator, perhaps as some other certificate 
program.
    And through the Army Education Center, the soldier can come 
in, get the appropriate counseling, get the appropriate credit 
for the training that he or she already has toward this 
particular certification, and then links the soldier with the 
appropriate institutions that are fully accredited, that have 
the same kinds of controls as the rest of the tuition 
assistance program.
    So it is not, ``Write us a check for $5,000, and we will 
send your certificate later.'' It provides for credit-hour 
checks and balances, that the education counselor can check 
progress, but also provides for the appropriate credit for the 
training that the soldier has received, with the ultimate goal 
for the institution, the educational institution, to fill in 
the gaps with that required training that will allow the 
soldier to get the certificate that he or she deserves.
    So we have a program in place that works that--the 
management controls are in place so that--so it is pretty 
effective, in terms of both outcome and investment.
    Dr. Snyder. One comment, and it will go to Mr. Wittman.
    Mr. Gordon, in response to your thoughts about books, as 
you know, there is no requirement that the schools charge for 
books. And, as you probably know, some for-profit schools waive 
book fees----
    Secretary Gordon. Yes, I do.
    Dr. Snyder. Yeah, so--in the spirit of completeness.
    Mr. Wittman.
    Mr. Wittman. Just one overall question. I know as these 
for-profit universities obviously expand into meeting this 
need, I think the concern is that there is a diversity of 
opportunities there, and if the not-profit, publicly supported 
institutions begin to wane in their activity in supporting our 
men and women pursuing degrees, if that opportunity wanes, my 
concern is, where does that leave us in the future? Does that 
actually create less access because it is getting focused into 
a smaller number of universities and institutions?
    So I just was wondering if any of you all have a comment 
about how do you make sure, going into the future, that we 
still have the variety of opportunities, including a very 
robust opportunity within our public institutions for our men 
and women in uniform to pursue degrees there.
    Mr. Gordon.
    Secretary Gordon. Thanks, Congressman Wittman.
    I think, you know, as I had mentioned earlier, this is a 
new day, with real opportunities, potentially, online with our 
society writ large. So, as long as that demand, I suspect, is 
out there, we will continue to see the expansion of those sorts 
of opportunities.
    And I really think the key is ensuring, you know, of those 
sorts of academic institutions that are available, that our 
servicemembers have access to the ones that provide them that 
valued education.
    You know, we have been talking a lot, I think, about almost 
silos of, you know, online versus brick-and-mortar, but a 
number of institutions have both, so that our servicemembers 
can combine an online and a brick-and-mortar education, as 
well. They can actually go to some classrooms. We have some 
downrange education centers, as well, that are both brick-and-
mortar and online.
    So I think we are seeing these trends. I suspect that they 
will continue. I think the key for us, though, is ensuring that 
quality education.
    Mr. Wittman. Mr. Larsen.
    Mr. Larsen. Sir, if I could offer, in the Marine Corps, 
from 2005 to 2009, the for-profit enrollment has increased from 
about 6,500 to about--almost to 11,000. So it hasn't quite 
doubled, but it has significantly increased.
    The not-for-profit population has remained constant at 
about 5,600, 5,700. And the traditional public universities 
have decreased, actually, from about 10,000 to about 8,000.
    So there has been a marked increase in for-profit in the 
Marine Corps in the last five years, and the others have 
remained somewhat constant.
    Mr. Lutterloh. Representative Wittman, from a Navy 
perspective, the for-profit schools certainly have increased, 
distance learning has increased, but our not-for-profit 
institutions have also increased.
    And I would say that, across the board, distance learning 
in all three segments, whether it be for-profit, not-for-
profit, and public, distance learning continues to increase as 
a segment of those populations. So we are seeing distance 
learning on the rise across the board.
    And it is not just for-profit schools that are increasing. 
Not-for-profit schools, as a percentage of our population, is 
also increasing. It is the public that has had a little bit of 
a decrease. And it is only marginal. Depending on how long you 
look at that, you see that data going up and down.
    And we are looking at the top 50 institutions, which 
comprise about 85 percent or so of our tuition assistance 
expenditures. When we look at the rest of the schools, most of 
those are public institutions, down below there. And when you 
add those in, I think the numbers might be a little bit more 
normalized.
    Secretary Stamilio. Mr. Wittman, if I may--thank you. Our 
trends are really pretty consistent with what my colleague in 
the Navy said.
    I guess, if I understood your question correctly, the real 
thought is, strategically or societally, where does the nation 
plan to be with regard to our mix of for-profit, non-profit, 
and private institutions? And, clearly, the investment that the 
federal government makes through the tuition assistance program 
is a component of that, but we are just less than 1 percent of 
the overall population.
    And so, I believe that a big, important question of this 
is, obviously, the quality that we monitor very carefully 
through our accreditation process, but then the overall 
societal acceptability of institutions is really one that is at 
issue here.
    We certainly want soldiers to have the appropriate 
opportunities to pursue whatever educational goals that they 
have, but, as you and Mr. Jones have stated, it is critical 
that all of that work and all of that investment translates to 
a credential that is acceptable by society and by the private 
sector.
    I am not sure how the Services can attack that, other than 
to absolutely stay tuned, absolutely be vigilant with regard to 
our pursuit of quality controls, but also to make sure that we 
are, within all of those parameters, providing soldiers 
opportunities so that they can pursue the educational goals 
that they are looking for.
    Thank you.
    Mr. Sitterly. Thank you for the question, Mr. Wittman.
    We are so proud of the Community College of the Air Force. 
And it gives us that diversity of thought, that diversity of 
education that you mentioned.
    The Community College of the Air Force is, in fact, the 
largest community college in the Air Force: as I mentioned 
earlier, 1.6 million credit-hours per year. If an airman goes 
to an aircraft-maintenance technical training, those 
instructors there are all certified. They have CCAF--or 90 
percent of them have CCAF degrees; the other 10 percent are 
working on them. And so they get a certain number of hours for 
that.
    If you go to the NCO Leadership School, that is accredited. 
If you go to any other enlisted training--I think we have 104, 
now, various facilities around the world that are accredited 
through the Community College of the Air Force. So 75 percent 
of the requirements to get an associate degree can be done 
directly through the Community College of the Air Force.
    So I am confident that we will continue to have that 
diversity in education in the Air Force for many years to come. 
They were just recently recertified, reaccredited, and I think 
we have nine years until we do it again.
    Mr. Wittman. Thank you, gentlemen.
    I think the challenge for all of you all is making sure 
that folks across the Service branches develop a greater 
understanding of the academic rigor throughout all of these 
opportunities so they can make a choice and then they 
understand the investment that they make, not only in the 
dollars they receive through the GI Bill but also their own 
personal investment in time, and what that is going to result 
in. So I think that is the challenge, going forward, is making 
sure that they understand the differences between those 
institutions.
    Thank you, Mr. Chairman. I yield back.
    Dr. Snyder. Thank you.
    As I think some of you know, this issue of what you all 
have been discussing here for some time now, the issue of how 
do you measure quality when it is not--it is going to be 
difficult for you all to do that with 7,000 schools out there, 
unless there are really some big problems.
    But, as you all may know, I think there has been some for-
profit schools that have bought small, financially distressed 
community colleges that have regional accreditation, and then 
they use that as the tail to wag the dog. And they are now 
regionally accredited, and then they can offer these courses, 
saying they are a regionally accredited school.
    I don't think that is what people hoped would happen by 
getting regional accreditation. I think we hoped that the 
quality would be going up, not just somebody found a shrewd 
opportunity to buy a school that was probably going under or 
was about to go under. But it does make it a challenge for you 
all.
    It also seems to me--I am struck a bit by--we have spent a 
year or so longer than we actually planned on looking at 
professional military education. And we looked at it in a lot 
of different ways. And Chairman Skelton was very repetitive in 
his use of the word ``rigor.'' That we do not see PME--if we 
see PME as ticket-punching, we are in trouble as a military. 
That we actually think that this stuff, with a good PME course, 
good professional military education, it will help the 
individual, help our military education.
    It seems like sometimes the tone here is about getting that 
degree, getting that associate degree, getting that credential. 
Well, we actually, I think--ultimately, the credential only 
means something if there is an education that goes along with 
it, and a quality education and one that helps you all in the 
military, helps us be safer.
    And in our discussion about professional military 
education, we had this discussion: Do we think there is an 
advantage to coming to the National Defense University and the 
Army War College and spending 10 months there and having a 
seminar group that meets for several hours a day, you know, 
several days a week? And I think the conclusion is, yes, we 
think there is value in that.
    And so I think we shouldn't be so--perhaps so quick to say, 
``Boy, these young kids are computer-oriented. It is great that 
they can sit at home and crank these things out on a, you know, 
20-hour caffeinated weekend,'' when they don't get the 
experience of what we--I think we are, as a military, saying we 
really value. We are putting a lot of money in these seminar 
classes, so we have a little bit of a conflict, I think. It 
gets back to this issue of how do you determine quality when it 
should be more than just ticket-punching, that the academic 
rigor needs to be there.
    Mr. Stamilio, I think you captured this whole issue in your 
written statement where you said, ``Since the Army complies 
with DOD tuition assistance policy and authorizes tuition 
assistance for all regionally and nationally accredited 
schools, we are''--and this is an understatement--``we are 
somewhat limited in our oversight of the non-SOC member schools 
and their delivery of quality educational programs to 
soldiers.''
    I think that gets at it. I acknowledge it is not your 
responsibility, but you have been very clear, you don't 
discriminate amongst schools, and that may be a problem.
    Mr. Sitterly, you may be familiar with what is going on at 
the Little Rock Air Force Base in Jacksonville, Arkansas, but 
several years ago--well, the whole issue came about after 
September 11th. They have a very robust educational program on-
base, with both national for-profit schools and then Arkansas 
State University and some others. But when September 11th 
occurred and the base was shut down, it really interfered with 
faculty--this happened at bases all over the country.
    The community responded by passing a bond issue, after 
discussion with the leadership of the base, and taxed 
themselves and raised $5 million, which they put in a bank 
account, to build the facility there in partnership with the 
Air Force, to build it outside the perimeter, on Federal 
property land, on Air Force base land, but outside the 
perimeter, so it could be accessible both to community people, 
community students, community faculty, but also air base 
personnel.
    It took a bit to convince the Air Force how to accept the 
check for $5 million, but we were finally able to do that, I 
think partly through the congressional insert process. And that 
building is about done.
    So there is a heck of an investment in these facilities, a 
heck of an investment of the community of Jacksonville in these 
facilities. And I think, ultimately, when we see a college, we 
want good things to happen there. We want it to be a rigorous 
academic environment that will help young people and not-so-
young people and help our military. And, you know, when you see 
that kind of very obvious investment of both local and federal 
dollars, like in this facility at Jacksonville, that really 
does put some responsibilities on you all to sort out this 
quality thing.
    And I don't want to pick on the for-profits; I think there 
are some good for-profit schools out there. But it is an issue 
that has flared up over the last several years. It is not going 
to go away, and you all are inheriting some of those issues. 
And for whatever reasons, I think it is very important that our 
military personnel not somehow get a false sense of security 
about their credential or a sense that all schools are equal 
because they are all accredited. Well, that is not--we all know 
that is not true. They are not all equal, and nobody here is 
saying that.
    But I think there are some ongoing issues for the military 
to sort out. I won't be here to help you sort them out, but I 
am sure you are going to do just fine.
    Anything further, Mr. Wittman?
    Mr. Wittman. No. Thank you.
    Dr. Snyder. Let me give you an open invitation. If you all 
have any additional statements that you would like to be 
included as part of the record, feel free to respond to this 
question.
    And I think you all are going to get me the numbers on 
counseling and where you see the numbers of counselors and 
counseling services having gone up in the last several years 
and where you see it going in the future.
    We are adjourned.
    [Whereupon, at 9:32 a.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                           September 22, 2010

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           September 22, 2010

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T2592.001
    
    [GRAPHIC] [TIFF OMITTED] T2592.002
    
    [GRAPHIC] [TIFF OMITTED] T2592.003
    
    [GRAPHIC] [TIFF OMITTED] T2592.004
    
    [GRAPHIC] [TIFF OMITTED] T2592.005
    
    [GRAPHIC] [TIFF OMITTED] T2592.006
    
    [GRAPHIC] [TIFF OMITTED] T2592.007
    
    [GRAPHIC] [TIFF OMITTED] T2592.008
    
    [GRAPHIC] [TIFF OMITTED] T2592.009
    
    [GRAPHIC] [TIFF OMITTED] T2592.010
    
    [GRAPHIC] [TIFF OMITTED] T2592.011
    
    [GRAPHIC] [TIFF OMITTED] T2592.012
    
    [GRAPHIC] [TIFF OMITTED] T2592.013
    
    [GRAPHIC] [TIFF OMITTED] T2592.014
    
    [GRAPHIC] [TIFF OMITTED] T2592.015
    
    [GRAPHIC] [TIFF OMITTED] T2592.016
    
    [GRAPHIC] [TIFF OMITTED] T2592.017
    
    [GRAPHIC] [TIFF OMITTED] T2592.018
    
    [GRAPHIC] [TIFF OMITTED] T2592.019
    
    [GRAPHIC] [TIFF OMITTED] T2592.020
    
    [GRAPHIC] [TIFF OMITTED] T2592.021
    
    [GRAPHIC] [TIFF OMITTED] T2592.022
    
    [GRAPHIC] [TIFF OMITTED] T2592.023
    
    [GRAPHIC] [TIFF OMITTED] T2592.024
    
    [GRAPHIC] [TIFF OMITTED] T2592.025
    
    [GRAPHIC] [TIFF OMITTED] T2592.026
    
    [GRAPHIC] [TIFF OMITTED] T2592.027
    
    [GRAPHIC] [TIFF OMITTED] T2592.028
    
    [GRAPHIC] [TIFF OMITTED] T2592.029
    
    [GRAPHIC] [TIFF OMITTED] T2592.030
    
    [GRAPHIC] [TIFF OMITTED] T2592.031
    
    [GRAPHIC] [TIFF OMITTED] T2592.032
    
    [GRAPHIC] [TIFF OMITTED] T2592.033
    
    [GRAPHIC] [TIFF OMITTED] T2592.034
    
    [GRAPHIC] [TIFF OMITTED] T2592.035
    
    [GRAPHIC] [TIFF OMITTED] T2592.036
    
    [GRAPHIC] [TIFF OMITTED] T2592.037
    
    [GRAPHIC] [TIFF OMITTED] T2592.038
    
    [GRAPHIC] [TIFF OMITTED] T2592.039
    
    [GRAPHIC] [TIFF OMITTED] T2592.040
    
    [GRAPHIC] [TIFF OMITTED] T2592.041
    
    [GRAPHIC] [TIFF OMITTED] T2592.042
    
    [GRAPHIC] [TIFF OMITTED] T2592.043
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           September 22, 2010

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY MR. JONES

    Secretary Gordon. The American Council on Education (ACE) has 
conducted 60 Military Installation Voluntary Education Reviews (MIVERs) 
on behalf of the Department of Defense during the past five years. A 
MIVER visit evaluates at least three colleges/universities at each 
military site and often involves multiple installations located in 
close proximity. No colleges/universities have been delisted as a 
result of these reviews.
    The purpose of the MIVER is to: 1) assess the quality of selected 
on-base voluntary education programs; and 2) assist in improving the 
programs by providing recommendations to institutions, installations, 
and the military Services. The five principle program areas that the 
MIVER assesses are mission statement and command support, program 
management and leadership, student services, resources, and voluntary 
education program plan. These principles were developed with the intent 
of establishing and maintaining servicemember access to higher 
education programs on military installations that are equivalent to 
programs on traditional campuses. More specifically, the principles are 
intended to:

    <bullet>  help define the parameters of excellence in voluntary 
higher education programs on military installations;

    <bullet>  stimulate dialogue on how to strengthen and improve the 
quality of these programs and services; and

    <bullet>  ensure that these programs continue to evolve as part of 
the mainstream of adult and higher education.

    When a MIVER is conducted, the review team provides findings and 
recommendations to the college/university and the installation 
commander. Historically, the institutions are generally receptive to 
findings and take the required measures to address program issues that 
would otherwise lead the program to be considered for ``delisting.'' 
Findings address such areas as adequacy of office space, key staff 
vacancies, disparities in resources, and inadequate library resources, 
connectivity and/or customer support. The Department of Education is 
responsible for curriculum accreditation; therefore, curriculum is not 
assessed during MIVERs.
    The current MIVER contract will end on December 31, 2010. DOD is in 
the process of soliciting for a new third-party review that will begin 
in 2011. The new review expands the scope of the MIVER to include all 
institutions participating in the Department of Defense (DOD) Tuition 
Assistance Program and not just those institutions operating on a 
military base. [See page 15.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           September 22, 2010

=======================================================================

      
                   QUESTIONS SUBMITTED BY DR. SNYDER

    Dr. Snyder. What counseling support is provided to servicemembers? 
What are the qualifications of educational counselors? To what extent 
have the number of counselors on military installations been reduced 
over the past five years? If so, why? Is counseling being replaced by 
Web-based services or other methods?
    Secretary Gordon. DOD provides counseling support and information 
on educational topics such as:
    <bullet>  Schools and admissions requirements
    <bullet>  School curriculum
    <bullet>  Accreditation and transferability of courses and credits
    <bullet>  Non-traditional credit for college courses through 
testing, such as: the College-Level Examination Program or CLEP tests; 
the Prometric DSST Exams (formally known as the Defense Activity for 
Non-Traditional Education Support (DANTES) Subject Standardized Tests); 
and the American Council on Education (ACE) Military credit 
recommendations
    <bullet>  School tuition costs and financial assistance to include 
military tuition assistance (TA), loans, and grants
    <bullet>  Department of Veteran Affairs (VA) Benefits: GI BILL and 
Post-9/11 GI BILL
    Counseling and education technicians provide support at Services' 
Education Centers on military installations. Counseling support is also 
provided to servicemembers via the Services' Web portals and call 
centers.
    Counselors have at least a bachelor's degree with appropriate 
standard education requirements* and a counseling practicum. Grade 
levels range from General Schedule (GS)-9 through GS-12 for counselors 
and education technicians range from GS 7-9.
    DOD policy prescribes that educational counseling shall be provided 
to servicemembers, but does not specify the method. The Services each 
manage their manpower and implement the DOD policy on counseling 
services. The Services' reductions in manpower and methods of 
delivering counseling services are attached.
    Dr. Snyder. Does DOD have a system in place to alert military 
installation education center directors about any Department of 
Education or other government reviews, investigations, or regulatory 
actions pending that pertain to institutions of higher education? What 
about if accrediting organizations place schools on probation?
    Secretary Gordon. No, DOD does not have a formal notification 
system to alert education centers about federal reviews, 
investigations, or regulatory actions pending that pertain to 
institutions of higher education. However, DOD has a contract with the 
American Association of State Colleges and Universities and the 
American Association of Community Colleges for the Servicemembers 
Opportunity College (SOC). SOC advocates for and communicates the needs 
of the military community with the higher education community. SOC is a 
consortium of more than 1,900 colleges and universities that provide 
educational opportunities for servicemembers around the world. SOC 
monitors these schools, which could include their accreditation status, 
and serves as the DOD liaison to resolve concerns and share program 
information to strengthen education relationships with DOD. If a school 
loses their accreditation status, they will also lose their SOC 
membership. When this occurs, SOC notifies OSD, the Services, and the 
Defense Activity for Non-Traditional Education Support (DANTES). The 
Services inform the installations so they can make adjustments to their 
tuition assistance management system. DANTES informs the installations 
through their monthly newsletter, the DANTES Information Bulletin.
    Dr. Snyder. Can you please describe how the proposed Military 
Voluntary Education Review (MVER) process will be implemented? How many 
reviews do you plan to conduct each year? When will reviews begin? How 
will installations and colleges be selected? How frequently will 
installations and colleges be reviewed? What criteria will be used in 
reviewing the quality of distance learning programs?
    Secretary Gordon. The process will be implemented in a manner 
similar to the current process of Military Installation Voluntary 
Education Review (MIVER). MIVER is a contracted program, conducted by 
the American Council on Education (ACE) since 1991. The Defense 
Activity for Non-Traditional Education Support (DANTES) manages the 
contract for DOD. The current contract expires December 2010 and a new 
Military Voluntary Education Review (MVER) contract will be obtained 
through the DOD acquisition process and awarded during Fiscal Year 
2011.
    As per the current MIVER process the new MVER will assess the 
quality of voluntary education programs received by the servicemembers 
using tuition assistance and assist in the improvement of voluntary 
education programs through appropriate recommendations to institutions. 
However, the new review process will be expanded to three types of 
reviews: an installation with multiple institutions on the base; 
distance learning institutions; and off-base traditional institutions. 
Sites and schools will be nominated by the Services and provided to the 
contractor. Currently there is an on-going competitive solicitation for 
the new third-party review. Due to contract sensitivity and non-release 
of the Request for Proposal, details of the process to include 
frequency of reviews, type of review and specific criteria cannot be 
disclosed.
    Dr. Snyder. A key component of the Department's proposed policy 
change for the Voluntary Education Program is to require institutions 
that receive tuition assistance to agree to certain commitments and 
sign a formal memorandum of understanding (MOU) with DOD. The 
Department has indicated that allegations of not following the 
agreements in an MOU will be submitted and handled through the Defense 
Activity for Non-traditional Education Support (DANTES) and 
Servicemembers Opportunity Colleges (SOC) organizations. How will the 
Department and Services identify potential ``allegations'' of not 
following the agreements in MOUs? What procedures and mechanisms will 
the Department and the Services implement to monitor adherence to MOUs?
    Secretary Gordon. The Department and the Services will identify 
potential ``allegations'' of not following the agreements in the MOUs 
through two methods. The non-compliance relating to the MOU could be 
disclosed during the new review process, the Military Voluntary 
Education Review (MVER) or reported by a servicemember to an 
educational official at the installation Education Office. For example, 
if a servicemember makes an allegation to a guidance counselor or the 
education services specialist at the education center on a military 
base, the government employee would assist the servicemember in first 
resolving the issue with the school. If the counselor cannot resolve 
the issue, it would be brought to the attention of the Education 
Services Officer (ESO). The ESO would contact the school or the 
accrediting agency. If need be, the ESO would raise the issue to their 
higher headquarters and Servicemembers Opportunity College (SOC).
    All MOU non-compliance issues will be further investigated and 
handled as described below. The following steps will be taken if a 
potential allegation is made against an institution with a signed MOU 
with DOD that is on the published list of institutions in good standing 
participating in the Military Tuition Assistance (TA) program.
    a) The installation and/or Service will confirm violations or 
complaints and attempt to resolve. If a resolution cannot be reached, 
the issue will be elevated to the Office of the Secretary of Defense 
(OSD), Voluntary Education Office.
    b) OSD will contact an appropriate authority within the institution 
to attempt to rectify the situation.
    c) If agreement between the offending institution and OSD can be 
resolved and the alleged violation is corrected, the matter is recorded 
and filed for record.
    d) If resolution cannot be achieved or violations appear major in 
scope, then OSD will request the Servicemembers Opportunity College 
(SOC) to assist.
    e) OSD will request SOC to send a letter addressed to the 
institution's president or chief executive officer with detailed 
information regarding the alleged violation or violations and request 
that the institution investigate the situation and respond to the SOC 
regarding ways to resolve the allegation.
    f) If the violation or violations appear major in scope, the SOC 
may consult with the institution's accrediting agency and receive that 
agency's advice on appropriate resolution of the offending situation.
    g) A reasonable response time will be specified with an alleged 
offending institution to allow for sufficient investigation and 
resolution of the situation.
    h) If satisfactory resolution can be achieved, correspondence 
involving the situation will be filed with the SOC with a copy sent to 
OSD.
    i) If attempts to resolve a violation, as outlined above, have 
failed and the member institution remains in violation, OSD will take 
action to terminate the MOU with the institution.
    Termination of an institutional MOU will result in its being 
removed from the ``list'' of institutions in good standing and placed 
on a ``delist''. Notification will go to the Services and 
installations. Delisted schools will not be allowed to participate in 
the tuition assistance program.
    Dr. Snyder. What plans, if any, do you have to begin collecting 
data and monitoring servicemembers' enrollment in for-profit schools?
    Secretary Gordon. Currently, DOD does not have plans to collect 
data and monitor servicemembers' enrollment in for-profit schools. All 
institutions are treated equally; Office of the Secretary of Defense 
(OSD) does not identify schools as state-supported (public), 
independent (non-profit) or proprietary (for-profit). Currently, the 
Services are analyzing the list of colleges that are authorized tuition 
assistance for our servicemembers to identify the type of school.
    All servicemember participation, course enrollments, and course 
completions are monitored by the OSD and the Services. The Voluntary 
Education Management Information System (VEMIS) electronically 
consolidates servicemember participation into one annual report. The 
VEMIS report rolls up Service-specific data on items such as: number of 
participants, number of enrollments, number of completions, types of 
degrees, certifications, foreign languages, personnel data, and related 
costs associated with providing education opportunities on 
installations worldwide. The system also includes tailored queries and 
reports using either current or historical VEMIS data to monitor the 
tuition assistance.
    Dr. Snyder. Data provided by the Army and Navy suggest that 
completion rates are lower for distance learning courses. Are 
completion rates lower for distance learning courses? Why is this? Are 
you seeing any decrease in completion rates over the past several 
years?
    Secretary Gordon. Yes, completion rates are lower for distance 
learning courses. Our military students face very different challenges 
than civilian counterparts enrolled in postsecondary courses. 
Interruptions such as the military mission, deployments, and transfers 
make course completions very difficult. There is increased 
participation in distance learning courses and online education 
programs. DOD recognizes the importance of successful completion rates.
    The Army and the Navy completion rates for the distance learning 
courses are attached.
    Dr. Snyder. Should the Department of Defense and the Services do 
more to monitor the recruiting practices of colleges that target 
servicemembers? If so, what steps will you take to increase monitoring 
efforts?
    Secretary Gordon. Currently, the monitoring of college recruitment 
practices is done at every level in the Department of Defense (DOD): 
the installation education center, education officers, installation 
base commanders, the Services, and the Office of the Secretary of 
Defense.
    As it stands now, the only schools that are invited onto the base 
(i.e. to conduct education fairs or to counsel their current students), 
or have memorandums of understanding with the base commander to operate 
on the base, are permitted to market their programs on base. If 
aggressive recruiting practices occur on a military base, the commander 
of the installation may ban the institution or recruiter from the base. 
In addition, DOD will then request the servicemembers Opportunity 
College (SOC) provide the institution the ``Military Student Bill of 
Rights'' containing the standards of good practice for educational 
recruitment and enrollment of servicemembers.
    Dr. Snyder. What is the impact, if any, of Joint basing on 
installation education centers?
    Secretary Gordon. There is no impact of Joint basing on 
installation education centers. This is due to the fact that Voluntary 
Education funding is not a base operating supply (BOS) funded function 
nor is it considered a community service. Consequently, education 
centers are not included in the Base Realignment and Closure (BRAC) 
2005 Joint Base implementation.
    Dr. Snyder. To what extent, if any, are servicemembers taking out 
education loans or using their own funds to pay for college education 
expenses? Do you have a means of checking on this?
    Secretary Gordon. Currently, there is no tracking mechanism in the 
case that servicemembers take out education loans or use their own 
funds to pay for college education expenses. DOD policy sets uniform 
tuition assistance levels and periodically reviews these levels to 
ensure the assistance provides ample tuition, limiting the need for 
servicemembers to have to pay for their off-duty education with their 
own funds.
    Under the current uniform Tuition Assistance (TA) policy, which 
commenced in Fiscal Year 2003, all servicemember participants may 
receive up to $4,500 of assistance per fiscal year with an individual 
course cost cap of $250 per semester hour.
    Dr. Snyder. Are complaints about higher education institutions 
tracked and shared across the Services and education centers?
    Secretary Gordon. Yes, they are tracked and shared across the 
Service and the education centers. We have three approaches in handling 
the allegations:
    <bullet>  Contacting the school and/or accrediting agency for 
resolution and requesting the school/agency provide a formal response 
to the allegations and corrective actions taken.
    <bullet>  Providing Servicemembers Opportunity College (SOC) with 
documentation and requesting they contact the institution for 
resolution. All investigations are recorded in the SOC Quarterly 
Report. A copy of the report is sent to OSD and the Services.
    <bullet>  Presenting the allegations to the Department of 
Education.
    Depending on the nature of the complaint or allegation, the 
following parties could be involved in resolving the issue:
    <bullet>  Guidance counselor: If a servicemember complains and/or 
makes an allegation to a guidance counselor or education officer on a 
military base the government employee assists the servicemember in 
resolving the issues with the schools. Depending on the allegation the 
counselor may contact the school, registrar, and/or accounting office 
of the school for the student. If the counselor cannot resolve the 
issue it would be brought to the attention of the Education Service 
Officer.
    <bullet>  Education Service Officer (ESO): The ESO communicates 
with the school and/or accrediting agency. If need be, the ESO raises 
the issue to their higher headquarters and Servicemembers Opportunity 
College (SOC).
    <bullet>  Installation commander: The commander has the authority 
to deny access to the base and control marketing initiatives. All 
institutions operating on a base must be invited (i.e. for an education 
fair) or have an MOU with the base. If aggressive marketing allegations 
towards a school are founded the commander will demand immediate 
removal from the base.
    SOC advocates for and communicates the needs of the military 
community with the higher education community. SOC ensures institutions 
are responsive to the special needs of the servicemembers; assists the 
higher education community to understand the requirements of the 
military; and serves as the DOD liaison with institutions to resolve 
concerns and share program information to strengthen education 
relationships with DOD. School allegations brought to the attention of 
SOC are investigated and resolved.
    Dr. Snyder. What counseling support is provided to servicemembers? 
What are the qualifications of educational counselors? To what extent 
have the number of counselors on military installations been reduced 
over the past five years? If so, why? Is counseling being replaced by 
Web-based services or other methods?
    Secretary Stamilio. Counselors are responsible for assisting 
soldiers to establish their long- and short-range educational goals. 
Once goals have been established and documented, and the soldier and 
ACES counselor agree on the appropriate programs and services needed to 
attain those goals, follow-on counseling is provided as necessary or as 
requested by the soldier. Tuition Assistance (TA) is authorized for 
courses offered by institutions that are accredited by regional or 
national accrediting agencies recognized by the Department of 
Education. Counseling information is provided via several means: face-
to-face, virtually through the GoArmyEd Web portal, telephonic, and 
email. Army counselors attempt to meet the counseling and information 
needs of soldiers through any and all means possible. Electronic 
communication is an effective tool in keeping soldiers informed and up-
to-date on benefits, services and their individual progress.
    Counselors are Department of the Army civilians in the GS-1740 
career field, with a minimum educational requirement of a BA/BS Degree 
in counseling or a degree with a curriculum containing 24 semester 
hours of adult education courses. A practicum in counseling is required 
or a two-year Department of the Army approved intern program. Most 
careerists in the series have earned a master's degree.
    As a result of significant budgetary constraints that led to major 
staffing cuts within Army Education centers worldwide, starting in 
2005, Army decided to centralize a number of administrative functions 
and operations (e.g., tuition assistance) as well as leverage 
technology and the efficiencies that could be gained thereby. The goal 
has been to create a more modern and holistic approach to providing 
counseling and educational support services; one that enhances 
soldiers' access to educational tools and information resources that 
are available 24/7/365. Since 2005, 233 counseling and other staff/
support positions have been eliminated in installation Army Education 
Centers. Currently there are 269 authorized Department of Army Civilian 
Employee Education Center staff (counselors, education specialists, 
education officers and administrative assistants), supported by 
approximately 390 contractors, working in Army's 116 Army Education 
Centers around the world. Counseling is not being replaced by 
technology and Web-based services in Army Education Centers; rather 
counseling is supported by these tools to help ensure access for all 
soldiers regardless of location of assignment or time of day. The need 
for education counseling is more important than ever as soldiers are 
faced with a tremendous amount of online and other detailed and 
confusing advertising information regarding educational opportunities. 
Senior Army leaders and subject matter experts are currently analyzing 
data and resources in detail, with the express purpose of coming up 
with a comprehensive solution for ``right-sizing'' the counseling 
staffs for all Army Education Centers.
    Dr. Snyder. Does DOD have a system in place to alert military 
installation education center directors about any Department of 
Education or other government reviews, investigations, or regulatory 
actions pending that pertain to institutions of higher education? What 
about if accrediting organizations place schools on probation?
    Secretary Stamilio. The Army, through its GoArmyEd portal, has 
established an interface with the U.S. Department of Education to 
receive a data feed of school information called the Postsecondary 
Education Participants System (PEPS). Contained in the PEPS data are 
the institution's accrediting agency and an indicator as to whether the 
school's accreditation is still active. The U.S. Department of 
Education updates the PEPS data weekly.
    The Army closely monitors the accreditation status of any 
institution that has been placed on probation by its accrediting 
agency. Additionally, if the school is a member of Servicemembers 
Opportunity Colleges (SOC), Army would request that SOC conduct an 
inquiry as to the reasons for the school's probationary status in order 
to ensure that no potential harm would come to soldiers and/or to 
prevent any violations of tuition assistance policies and procedures. 
Should the institution lose its accreditation, the school would be 
immediately deactivated and removed from the GoArmyEd portal. Once 
removed, soldiers would no longer be able to access information about 
the school through the GoArmyEd portal nor would they be able to 
receive tuition assistance funds in order to attend any deactivated 
school.
    Dr. Snyder. Can you please describe how the proposed Military 
Voluntary Education Review (MVER) process will be implemented? How many 
reviews do you plan to conduct each year? When will reviews begin? How 
will installations and colleges be selected? How frequently will 
installations and colleges be reviewed? What criteria will be used in 
reviewing the quality of distance learning programs?
    Secretary Stamilio. The current process, Military Installation 
Voluntary Education Review (MIVER), is a contracted program, conducted 
by the American Council on Education since 1991. The Defense Activity 
for Non-Traditional Education Support (DANTES) manages the contract for 
DOD. The current contract expires December 2010. A new Military 
Voluntary Review contract will be obtained through the DOD Acquisition 
process and awarded during Fiscal Year 2011.
    We expect the function of the new Military Voluntary Education 
Review (MVER) to be similar to the MIVER function. However, since DOD 
is currently going through the acquisition process, details of the new 
review are not finalized. The new process will assess the quality of 
voluntary education programs received by the servicemembers using 
tuition assistance and assist in the improvement of voluntary education 
programs through appropriate recommendations to institutions. There 
will be three types of reviews: installation with multiple institutions 
operating on the base; distance learning; and off-base traditional 
institutions. Sites and schools will be nominated by the Services and 
provided to the contractor.
    The number of MVERs to be conducted annually will be based upon 
available funding.
    Dr. Snyder. A key component of the Department's proposed policy 
change for the Voluntary Education Program is to require institutions 
that receive tuition assistance to agree to certain commitments and 
sign a formal memorandum of understanding (MOU) with DOD. The 
Department has indicated that allegations of not following the 
agreements in an MOU will be submitted and handled through the Defense 
Activity for Non-traditional Education Support (DANTES) and 
Servicemembers Opportunity Colleges (SOC) organizations. How will the 
Department and Services identify potential ``allegations'' of not 
following the agreements in MOUs? What procedures and mechanisms will 
the Department and the Services implement to monitor adherence to MOUs?
    Secretary Stamilio. Feedback provided by soldiers and Education 
Center personnel will be the primary means for identifying allegations. 
The following steps will be taken if an allegation is made against an 
institution that has a signed MOU with DOD:
    1. Installation and/or Service will investigate and confirm 
violations/complaints and attempt to resolve. If resolution cannot be 
resolved at this level, the issue will be elevated to Office of the 
Secretary of Defense (OSD), Voluntary Education Office.
    2. OSD will consult with Office of General Counsel for advice and 
contact an appropriate authority within the institution and attempt to 
rectify the situation.
    3. If agreement between the offending institution and OSD can be 
resolved, and the alleged violation corrected, the matter is documented 
for record.
    4. If resolution cannot be achieved or violations appear to be 
major in scope, then OSD will request Servicemembers Opportunity 
College (SOC) to assist.
    5. OSD will request that SOC send a letter that is addressed to the 
institution's president or chief executive officer with detailed 
information regarding the alleged violation or violations and request 
that the institution investigate the situation and respond to SOC 
regarding ways to resolve the allegation.
    6. If the violation or violations appear to be major in scope, the 
SOC may consult with the institution's accrediting agency and receive 
that agency's advice on appropriate resolution of the offending 
situation.
    7. A reasonable response time will be specified with an alleged 
offending institution to allow for sufficient investigation and 
resolution of the situation.
    8. If satisfactory resolution can be achieved, correspondence 
involving the situation will be filed with the SOC with a copy sent to 
OSD.
    9. If the attempts, as outlined above, fail to bring about a 
satisfactory resolution to the alleged violation(s), and if the member 
institution continues to remain in violation, OSD will take action to 
terminate the institution's MOU after consulting with OGC.
    10. Termination of an institutional MOU will result in the school 
being removed from the ``list'' of institutions in ``good standing.'' 
This institution will then be placed on the ``de-listed'' notification 
report that will be promptly distributed to the Services and 
installations. De-listed schools will not be allowed to participate in 
the Tuition Assistance program.
    Dr. Snyder. What plans, if any, do you have to begin collecting 
data and monitoring servicemembers' enrollment in for-profit schools?
    Secretary Stamilio. Currently, the Army monitors soldiers' 
participation, course enrollments, and course completions through the 
GoArmyEd portal. This automated system has the functionality to provide 
enrollment, expenditures, and completion rates by school. In FY 2011, 
Army will begin to regularly monitor these categories of data in order 
to identify trends and patterns that pertain to for profit, non-profit, 
classroom based as well as distance learning schools. Trends and 
patterns will then be analyzed and the results of these analyses will 
be incorporated in our ongoing program improvement plans.
    Dr. Snyder. Data provided by the Army and Navy suggest that 
completion rates are lower for distance learning courses. Are 
completion rates lower for distance learning courses? Why is this? Are 
you seeing any decrease in completion rates over the past several 
years?
    Secretary Stamilio. The completion rates for distance learning are 
slightly lower for distance learning courses when compared to 
traditional classroom-based courses. During FY07-09, the completion 
rate for distance learning courses was 86%, compared to the 89% for 
traditional courses during the same time period.
    The reason for a lower completion rate can be attributed to the 
fact that distance learning courses require a more disciplined student 
to be successful. Individual student factors may include the lack of 
academic preparedness, student support not readily available, and the 
student's learning style may not be conducive for distance learning 
courses. Other factors may include interruptions such as the military 
mission, deployments, transfers, or family obligations which make 
course completions very difficult. During the last ten years, the 
Army's operational tempo has increased and soldiers have been deployed 
multiple times.
    The completion rates for distance learning have remained steady 
during FY07-09 (FY07--87%, FY08--85%, FY09--86%).
    Dr. Snyder. Should the Department of Defense and the Services do 
more to monitor the recruiting practices of colleges that target 
servicemembers? If so, what steps will you take to increase monitoring 
efforts?
    Secretary Stamilio. The monitoring of institutions is worked 
diligently throughout the Army, especially in the installation 
education centers through Guidance Counselors, Education Services 
Officers, other education center personnel, and the Installation 
Commanders. Feedback from soldiers regarding potential overly 
aggressive/marketing efforts by a school would also be followed up.
    There are occasional instances where institutions may exceed their 
bounds in marketing and recruiting. It is made clear that institutions 
may only market and recruit for their programs by invitation of the 
Installation Commander. An overly aggressive institution may make 
offers to Education Services Officers (ESO) in exchange for use of 
education center space to market their program and recruit soldiers and 
Family Members. In those instances, ESOs must decline any requests by 
these institutions to access their education centers for the purpose of 
marketing/recruiting. The institutions may however, by invitation of 
the ESO, leave approved informational brochures, flyers, pamphlets, and 
even school applications in the education center. Identified 
questionable marketing practices committed by online institutions will 
be reported up through the Education Center chain of command to Army 
and DOD Headquarters. SOC will be asked for assistance in instances in 
which the offending school is a SOC member.
    Dr. Snyder. What is the impact, if any, of Joint basing on 
installation education centers?
    Secretary Stamilio. No impact. Voluntary Education remains service 
based because it was not considered a common installation management 
function. The Army and each of the other Services maintain 
responsibility for support and management of their own respective 
education centers on Joint bases.
    Dr. Snyder. To what extent, if any, are servicemembers taking out 
education loans or using their own funds to pay for college education 
expenses? Do you have a means of checking on this?
    Secretary Stamilio. The Army does not track whether soldiers take 
out education loans or use their own funds to pay for tuition. The Army 
does, however, review the Uniform Tuition Assistance (TA) Policy 
periodically to ensure that the assistance provided is sufficient so 
that the majority of servicemembers do not have to pay for their off-
duty education out of their own pocket.
    Under the current uniform Tuition Assistance (TA) policy all 
soldiers may receive up to $4,500 of TA per fiscal year; individual 
course costs have a $250 per semester hour cap.
    In 2009, an all-Service task force led by OSD reviewed the cost of 
attending school and the tuition assistance policy. The outcome of the 
review revealed that:
    <bullet>  80% of all students were attending schools that charged 
at or under the semester hour cap. The other 20% of the servicemembers 
have other options (including combining TA and GI Bill and/or Pell 
Grants); they select the institution they attend. There are ample 
institutions offering similar degree programs at institutions that are 
within the cap.
    <bullet>  The $250 per semester hour cap covers the cost of almost 
all undergraduate tuition expenses.
    Dr. Snyder. Are complaints about higher education institutions 
tracked and shared across the Services and education centers?
    Secretary Stamilio. Servicemembers Opportunity College (SOC) 
ensures that institutions are responsive to the special needs of the 
servicemembers; assists the higher education community to understand 
the requirements of the military; and serves as the Army/DOD liaison 
with institutions to resolve concerns and share program information to 
strengthen education relationships with the Army/DOD. School 
allegations brought to the attention of SOC are investigated and 
resolved. All investigations are recorded in the SOC Quarterly Report. 
A copy of the report is sent to the OSD and the Services.
    Dr. Snyder. What counseling support is provided to servicemembers? 
What are the qualifications of educational counselors? To what extent 
have the number of counselors on military installations been reduced 
over the past five years? If so, why? Is counseling being replaced by 
Web-based services or other methods?
    Mr. Lutterloh. Navy College Offices provide face-to-face counseling 
support and information to sailors on 36 major Navy installations. 
Counselors, classified in the federal civilian General Schedule 1740 
series, a professional series for education administration and 
counseling, provide information on which programs meet sailors' 
educational goals, cost and time to complete degree requirements and 
transferability of course and program credits to higher level degree 
programs. In FY2009, 217,000 counseling sessions were recorded by Navy 
College Counselors. They processed 125,000 Tuition Assistance (TA) 
requests for 57,400 sailors. Navy's Virtual Education Center (VEC), 
established in July 2010, conducts virtual counseling sessions, 
processes all Web-based TA applications, updates Sailor/Marine American 
Council on Education Registry Transcripts (SMART), authenticates 
degrees and communicates general information.
    Our approach to counseling services has changed, but the importance 
we place on counseling has not. Our Navy College Office and VEC 
counselors remain the single most valuable asset to the Navy College 
Program. Between FY 2005 and 2009, the number of Voluntary Education 
(VOLED) counselors on installations ranged between 167 in FY05 and 179 
in FY09. On the average, two-thirds of counseling support was provided 
by contract counselors. However, in FY 2010, Navy took a holistic 
approach in transforming our voluntary education program that 
eliminated contractors, increasing federal employees to support 
counseling and testing requirements, and leveraged technology to 
enhance sailor access to educational support tools and information. 
This resulted in a net reduction of 57 counselors. Overall, the 
capability to support sailors was enhanced. One key feature of our 
transformation was opening a state-of-the-art VEC. This allowed Navy to 
centralize support functions, such as processing TA and updating SMART, 
authenticating college transcripts for military personnel and providing 
additional time for counseling at the installation level. The VEC is 
staffed by 8 counselors and 18 education technicians who provide easy 
access to a one-stop-shopping for virtual counseling and educational 
information and currently operates 15 hours/day (0600-2100) to 
accommodate the different time zones around the world.
    Dr. Snyder. Does DOD have a system in place to alert military 
installation education center directors about any Department of 
Education or other government reviews, investigations, or regulatory 
actions pending that pertain to institutions of higher education? What 
about if accrediting organizations place schools on probation?
    Mr. Lutterloh. Servicemembers Opportunity Colleges (SOC), a 
consortium of approximately 1900 colleges and universities, monitors 
its member academic institutions. When allegations are levied against 
an institution, or if an institution loses its accreditation, the 
Office of the Secretary of Defense and the Military Services are 
notified. The Services meet regularly with SOC to address such issues 
and SOC submits a quarterly report detailing any actions they have 
taken with regard to academic institutions. This information is shared 
through the chain of command.
    DOD also sponsors a quarterly Inter-Service Working Group in which 
the Services share pertinent information on a variety of issues. If 
there are academic institutions not adhering to the rules, the Services 
discuss the matter to determine whether the concerns are DOD-wide or 
limited to a single Service or location. Prior to authorizing Tuition 
Assistance (TA), Virtual Education Center (VEC) and Navy College Office 
(NCO) staffs routinely check the Department of Education Web site to 
verify the accreditation status of academic institutions. SOC or Navy's 
Center for Personal and Professional Development (CPPD) Distance 
Learning program manager notify the VEC/NCO of an institution's loss of 
accreditation for MOU/on-based schools or Navy Distance Learning 
Partners. Once loss of accreditation is confirmed, the school is not 
permitted to receive TA or conduct classes on the installation.
    Dr. Snyder. Can you please describe how the proposed Military 
Voluntary Education Review (MVER) process will be implemented? How many 
reviews do you plan to conduct each year? When will reviews begin? How 
will installations and colleges be selected? How frequently will 
installations and colleges be reviewed? What criteria will be used in 
reviewing the quality of distance learning programs?
    Mr. Lutterloh. The proposed Military Voluntary Education Review 
(MVER), like the current Military Installation Voluntary Education 
Review (MIVER), is a contracted program. However, since the MVER 
statement of work has not yet been finalized, I am currently unable to 
share specific detail on the criteria for reviews. The MVER contract 
start date is planned for January 2012, and Navy, as the DANTES DOD 
Executive Agent, will fund the reviews, with the number of reviews 
dependent upon funding availability. Three types of reviews will be 
conducted: on-base, off-base, and distance learning programs. On-base 
MVERs will be Service specific with the individual Service identifying 
installations selected for review. Off-base and distance learning 
reviews will be conducted on a DOD-wide basis, with institutions 
selected by a DOD Inter-Service Working Group.
    Dr. Snyder. A key component of the Department's proposed policy 
change for the Voluntary Education Program is to require institutions 
that receive tuition assistance to agree to certain commitments and 
sign a formal memorandum of understanding (MOU) with DOD. The 
Department has indicated that allegations of not following the 
agreements in an MOU will be submitted and handled through the Defense 
Activity for Non-traditional Education Support (DANTES) and 
Servicemembers Opportunity Colleges (SOC) organizations. How will the 
Department and Services identify potential ``allegations'' of not 
following the agreements in MOUs? What procedures and mechanisms will 
the Department and the Services implement to monitor adherence to MOUs?
    Mr. Lutterloh. Navy receives formal announcements from Department 
of Education (DOE), DANTES, SOC, and other accrediting boards. 
Additionally, adherence is monitored at the execution level by the Navy 
College Offices. Institutions that do not comply with the MOUs are 
either asked to leave the base or no longer remain part of the Navy 
College Program Distance Learning Partnership.
    Dr. Snyder. What plans, if any, do you have to begin collecting 
data and monitoring servicemembers' enrollment in for-profit schools?
    Mr. Lutterloh. Navy already tracks education data through the Navy 
College Management Information System (NCMIS). It is a management tool 
that provides a complete history of courses funded through Tuition 
Assistance (TA). This includes grades and degrees earned, completion 
rates, rank/rate, pay grade, academic institution(s) attended, type of 
course (distance learning or traditional), level of degree (AS/BS/MS/
PHD), expenditures, credits earned and approved education plans. NCMIS 
has the functionality to provide these same performance measures for 
public, non-profit and for-profit institutions. Navy is currently 
analyzing the list of colleges that are authorized TA for our sailors 
to identify the type of school (public, non-profit, or for-profit). 
Once this list is complete, NCMIS will be updated. Targeted completion 
date is Jan 2011.
    Navy is actively engaged in the review of VOLED performance 
indicators. Costs, participation and enrollment are assessed monthly. 
Course completion rates are reviewed semiannually. Academic 
institutional data is presented annually at a variety of forums to 
include the Council of Colleges and Military Educators (CCME) 
conference, Academic Council on Military Education (ACME) at the state 
levels and to DOD as a component of the annual voluntary education 
report. Academic institutional data is also available to the colleges 
upon request. Trends are investigated for possible lessons learned or 
improvements.
    Dr. Snyder. Data provided by the Army and Navy suggest that 
completion rates are lower for distance learning courses. Are 
completion rates lower for distance learning courses? Why is this? Are 
you seeing any decrease in completion rates over the past several 
years?
    Mr. Lutterloh. The completion rate for instructor-led courses is 
higher than for distance learning. In FY09, enlisted sailors took 
48,875 undergraduate courses with 43,478 completions recorded. During 
the same time frame, enlisted sailors took 93,685 distance learning 
courses with 75,011 completions recorded.
    Studies of non-completion rates for courses taken on board ship 
indicated a variety of causes. Results showed that not all courses 
should be delivered via distance learning, not all professors are 
effective at teaching distance learning and some sailors were not 
disciplined enough to take distance learning courses. For example, 
highly technical subjects that required the sailor to have a strong 
background in the material had the highest non-completion rate. Junior 
sailors were more likely to be unsuccessful than senior sailors. Junior 
sailors, new to shipboard life, are challenged with acclimation and 
qualifications for their role on the ship. To help increase the 
likelihood of success, Navy implemented a new policy that restricts 
sailors who are within the first year of their first permanent duty 
station from participating in Navy-funded TA courses. Navy also 
implemented a distance learning screening tool designed to indicate 
those sailors who are self-disciplined and have good time management 
skills.
    Because of the increased participation in distance learning 
courses, Navy continues to pay particular attention to the course 
completion rates and will implement policy and guidelines as needed to 
improve every sailors' chance for success.
    Dr. Snyder. Should the Department of Defense and the Services do 
more to monitor the recruiting practices of colleges that target 
servicemembers? If so, what steps will you take to increase monitoring 
efforts?
    Mr. Lutterloh. We do not believe that additional monitoring steps 
are required at this time. Current procedures for monitoring recruiting 
practices for programs offered on Navy installations are considered 
adequate. We will, however, continue to monitor recruiting practices 
closely through feedback from the Navy College Office and sailors.
    Dr. Snyder. What is the impact, if any, of Joint basing on 
installation education centers?
    Mr. Lutterloh. We have not observed any impact on installation 
education centers as a result of Joint basing.
    Dr. Snyder. To what extent, if any, are servicemembers taking out 
education loans or using their own funds to pay for college education 
expenses? Do you have a means of checking on this?
    Mr. Lutterloh. Navy does not track how sailors pay for expenses 
above what Navy Tuition Assistance payments cover. Sailors that elect 
to take graduate degrees and undergraduate courses that exceed the DOD 
cap of $250 per credit hour are responsible for payment that exceeds 
Tuition Assistance thresholds. Additionally, sailors electing to exceed 
the 16 semester hour cap established by the Navy are responsible for 
any additional tuition costs. Sailors who voluntarily choose to attend 
these programs or exceed the funded TA cap, seek additional funding in 
a variety of ways to include GI Bill, Pell Grants, personal loans and 
personal resources.
    Dr. Snyder. Are complaints about higher education institutions 
tracked and shared across the Services and education centers?
    Mr. Lutterloh. The Servicemembers Opportunity Colleges (SOC) 
organization does provide a quarterly report to the Services if any 
allegations are addressed at the SOC level. However, complaints are not 
tracked or shared formally between DOD and the Services.
    Dr. Snyder. Do the other Services have an official transcript 
service like the Army's American Council on Education Registry 
Transcript Service (AARTS)?
    Mr. Lutterloh. Navy has the Sailor/Marine American Council on 
Education Registry Transcript (SMART) that supports all the sea 
Services (Navy, USMC and US Coast Guard). SMART is an automated system 
that documents successfully completed training, grades for completed 
college courses, scores on academic exams such as College Level 
Examination Program (CLEP) and Defense Activity for Non-Traditional 
Education Support (DANTES) and American Council on Education (ACE) 
recommended credits for successfully completed military training. SMART 
is the Navy's official transcript and bears ACE's official seal. SMART 
is available online and can be accessed by the active duty, SELRES or 
veteran. servicemembers and veterans may request an official transcript 
be provided to academic institutions through our Virtual Education 
Center at no cost to the member or the veteran.
    Dr. Snyder. What counseling support is provided to servicemembers? 
What are the qualifications of educational counselors? To what extent 
have the number of counselors on military installations been reduced 
over the past five years? If so, why? Is counseling being replaced by 
Web-based services or other methods?
    Mr. Sitterly. Counseling is provided at every Air Force Base (AFB) 
in the world. Qualifications for counselors meet the Office of 
Personnel Management standard for 1740 series positions--a minimum 
bachelor's degree and 24 semester hours of credit in education/
psychology courses within that degree or beyond. The number of 
counselors at AFBs has remained relatively stable over the last five 
years. Air Force is not replacing counseling with computer tools; 
however, those tools are assisting with information dissemination. Web-
based tools are used for general information purposes. Counseling is 
used to assist airmen with college and degree decisions.
    Dr. Snyder. Does DOD have a system in place to alert military 
installation education center directors about any Department of 
Education or other government reviews, investigations, or regulatory 
actions pending that pertain to institutions of higher education? What 
about if accrediting organizations place schools on probation?
    Mr. Sitterly. As far as Air Force knows, there is no specific DOD 
system in place for this kind of alert.
    Dr. Snyder. Can you please describe how the proposed Military 
Voluntary Education Review (MVER) process will be implemented? How many 
reviews do you plan to conduct each year? When will reviews begin? How 
will installations and colleges be selected? How frequently will 
installations and colleges be reviewed? What criteria will be used in 
reviewing the quality of distance learning programs?
    Mr. Sitterly. The AF does not have this information. Suggest this 
question be directed to the DOD office of Continuing Education 
Programs, OUSD (P&R) Military Community and Family Policy, that is 
working the next contract proposal.
    Dr. Snyder. A key component of the Department's proposed policy 
change for the Voluntary Education Program is to require institutions 
that receive tuition assistance to agree to certain commitments and 
sign a formal memorandum of understanding (MOU) with DOD. The 
Department has indicated that allegations of not following the 
agreements in an MOU will be submitted and handled through the Defense 
Activity for Non-traditional Education Support (DANTES) and 
Servicemembers Opportunity Colleges (SOC) organizations. How will the 
Department and Services identify potential ``allegations'' of not 
following the agreements in MOUs? What procedures and mechanisms will 
the Department and the Services implement to monitor adherence to MOUs?
    Mr. Sitterly. This will be a DOD-wide MOU after DODI 1322.25, 
Voluntary Education Program, is published. Since it is still in the 
coordination stage there could be changes made to the existing draft 
that will impact the way this could be monitored. Air Force believes 
the best way to handle this is for the Services and DOD to sit down and 
work out a standard process for all the Services to follow after it is 
finalized.
    Dr. Snyder. What plans, if any, do you have to begin collecting 
data and monitoring servicemembers' enrollment in for-profit schools?
    Mr. Sitterly. Air Force (AF) has never had a need to identify 
schools in this manner. We have begun this identification (ID) process 
and are loading additional data fields in the online system as we work 
with schools. Any changes like this for the nearly 3,000 civilian 
schools AF has contact with, takes time to implement. When all schools 
have an ID loaded into the computer system (estimate one fiscal year), 
then data can be pulled by this new ID field.
    Dr. Snyder. Data provided by the Army and Navy suggest that 
completion rates are lower for distance learning courses. Are 
completion rates lower for distance learning courses? Why is this? Are 
you seeing any decrease in completion rates over the past several 
years?
    Mr. Sitterly. Air Force has noted a minimal difference in course 
completions dependent on course delivery methods: 92% for traditional; 
89% for distance learning. Completion rates for college courses in the 
AF has traditionally been high no matter the delivery system - 90% or 
above over the last five years.
    Dr. Snyder. Should the Department of Defense and the Services do 
more to monitor the recruiting practices of colleges that target 
servicemembers? If so, what steps will you take to increase monitoring 
efforts?
    Mr. Sitterly. Most recruiting takes place off-base, online or 
through other methods not within the sight or control of the Services. 
All on-base recruiting falls under the requirements of DODI 1344.07_AFI 
36-2702, Personal Commercial Solicitation on Air Force Installations 
(the Air Force's published implementation and supplementation of the 
DODI 1344.07, Personal Commercial Solicitation on DOD Installations). 
This Air Force publication provides notice of the Department of Defense 
and Air Force controls regarding on-base solicitation and includes 
request, approval, evaluation and complaint processes. The publication 
will be provided to all schools using the Servicemembers Opportunities 
College (SOC) communication network, and we will offer to provide 
clarification upon request.
    Dr. Snyder. What is the impact, if any, of Joint basing on 
installation education centers?
    Mr. Sitterly. Air Force is not aware of any impacts at this time.
    Dr. Snyder. To what extent, if any, are servicemembers taking out 
education loans or using their own funds to pay for college education 
expenses? Do you have a means of checking on this?
    Mr. Sitterly. The Air Force has no current means of determining 
whether airmen are using education loans and/or their own funds to pay 
for education expenses.
    Dr. Snyder. Are complaints about higher education institutions 
tracked and shared across the Services and education centers?
    Mr. Sitterly. There is no formal process for this.
    Dr. Snyder. Do the other Services have an official transcript 
service like the Army's American Council on Education Registry 
Transcript Service (AARTS)?
    Mr. Sitterly. The Air Force has an official transcript service 
within the Community College of the Air Force (CCAF). CCAF transcripts 
enlisted training, evaluated for college credit by the Southern 
Association of Colleges and Schools (SACS) that applies toward CCAF 
degrees. This service is at no cost to airmen.
    Dr. Snyder. What counseling support is provided to servicemembers? 
What are the qualifications of educational counselors? To what extent 
have the number of counselors on military installations been reduced 
over the past five years? If so, why? Is counseling being replaced by 
Web-based services or other methods?
    Mr. Larsen. Corps Education Center counselors provide information 
about college education opportunities to servicemembers during in-
person counseling sessions and briefs. Counseling sessions contain 
additional information about the tuition assistance program, the 
process involved, and the types of schools that can receive assistance 
funding. All Education Service Officers (ESOs) have a Bachelor's 
Degree, eighty-one percent have a Masters degree, and six percent have 
a Ph.D. Three percent of Education Service Specialists (ESSs) have 
their Associate's Degree, ninety-seven percent have a Bachelor's 
Degree, and fifty-six percent have a Master's Degree. The Marine Corps 
counseling resources have not been reduced in recent years. The Marine 
Corps has no plans to replace counseling with Web-based services or 
other methods.
    Dr. Snyder. Does DOD have a system in place to alert military 
installation education center directors about any Department of 
Education or other government reviews, investigations, or regulatory 
actions pending that pertain to institutions of higher education? What 
about if accrediting organizations place schools on probation?
    Mr. Larsen. OSD will answer this question.
    Dr. Snyder. Can you please describe how the proposed Military 
Voluntary Education Review (MVER) process will be implemented? How many 
reviews do you plan to conduct each year? When will reviews begin? How 
will installations and colleges be selected? How frequently will 
installations and colleges be reviewed? What criteria will be used in 
reviewing the quality of distance learning programs?
    Mr. Larsen. OSD will answer this question.
    Dr. Snyder. A key component of the Department's proposed policy 
change for the Voluntary Education Program is to require institutions 
that receive tuition assistance to agree to certain commitments and 
sign a formal memorandum of understanding (MOU) with DOD. The 
Department has indicated that allegations of not following the 
agreements in an MOU will be submitted and handled through the Defense 
Activity for Non-traditional Education Support (DANTES) and 
Servicemembers Opportunity Colleges (SOC) organizations. How will the 
Department and Services identify potential ``allegations'' of not 
following the agreements in MOUs? What procedures and mechanisms will 
the Department and the Services implement to monitor adherence to MOUs?
    Mr. Larsen. OSD will answer this question.
    Dr. Snyder. What plans, if any, do you have to begin collecting 
data and monitoring servicemembers' enrollment in for-profit schools?
    Mr. Larsen. Marine Corps currently collects data on servicemembers' 
participation, enrollments, and course completions. We do not 
specifically identify institutions of higher learning as for-profit, 
non-profit, or state supported.
    Dr. Snyder. Data provided by the Army and Navy suggest that 
completion rates are lower for distance learning courses. Are 
completion rates lower for distance learning courses? Why is this? Are 
you seeing any decrease in completion rates over the past several 
years?
    Mr. Larsen. The Marine Corps has not seen a decrease in completion 
rates for distance learning courses over the past several years.
    Dr. Snyder. Should the Department of Defense and the Services do 
more to monitor the recruiting practices of colleges that target 
servicemembers? If so, what steps will you take to increase monitoring 
efforts?
    Mr. Larsen. The Marine Corps monitors colleges' recruiting 
practices by requiring all educational institutions that come on to the 
base to meet with the Education Service Officers (ESOs) and establish 
an agreement prior to contacting potential students. The installation 
commander has primacy over any incidents of aggressive marketing. 
Actions to address this issue include referring the issue to the 
command's Inspector General and/or restricting an educational 
institution's access to the installation and marines.
    Dr. Snyder. What is the impact, if any, of Joint basing on 
installation education centers?
    Mr. Larsen. There has not been an impact on the Marine Corps since 
we do not participate in any Joint basing of installation education 
centers.
    Dr. Snyder. To what extent, if any, are servicemembers taking out 
education loans or using their own funds to pay for college education 
expenses? Do you have a means of checking on this?
    Mr. Larsen. Using personal loans or personal funds for education 
expenses is not tracked by the Marine Corps since it is considered to 
be a personal matter. However, the USMC will continue to make our 
servicemembers aware of our Tuition Assistance Program (TA).
    Dr. Snyder. Are complaints about higher education institutions 
tracked and shared across the Services and education centers?
    Mr. Larsen. OSD will answer this question.
    Dr. Snyder. Do the other Services have an official transcript 
service like the Army's American Council on Education Registry 
Transcript Service (AARTS)?
    Mr. Larsen. The Marine Corps and the Navy developed the Sailor and 
Marine American Council on Education Registry Transcript (SMART) to 
document military education and experience.
    SMART records recommend college credit for military occupational 
skills, formal military schools, Marine Corps Institute courses, 
Defense Language Proficiency Tests, DANTES Standardized Subject Tests, 
and College Level Examination Program examinations. Validated by the 
American Council on Education, SMART may be submitted directly to a 
college or university for recommended college credits.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
